   Office of Inspector General
   Audit Report




               Air



Idaho’s Air Enforcement Program
       E1GAF8-10-0018-8100249
         September 30, 1998
Inspector General Division   Western Audit Division
 Conducting the Audit        Seattle Branch Office

Region covered               Region 10

Program Office Involved      Office of Air Quality
                                               September 30, 1998

MEMORANDUM

SUBJECT:       Idaho’s Air Enforcement Program
               Audit Report No. E1GAF8-10-0018-8100249

FROM:          Truman R. Beeler
               Divisional Inspector General for Audits
               Western Audit Division

TO:            Chuck Clarke
               Regional Administrator
               EPA Region 10

Attached is our final report titled Idaho’s Air Enforcement Program. The overall purpose of the
audit was to evaluate the effectiveness of the State of Idaho’s administration and EPA Region 10's
oversight of the stationary source air enforcement program in Idaho.

We concluded that the State’s administration and the Region’s oversight of the stationary source
air enforcement program for Idaho’s significant violators were not sufficient to ensure compliance
with federal and State laws and regulations. We believe that improvements are necessary to
prevent threats to public health and the environment.

This audit report contains findings that describe problems the Office of Inspector General has
identified and corrective actions the OIG recommends. This audit report represents the opinion of
the OIG and the findings contained in this audit report do not necessarily represent the final EPA
position. Final determinations on matters in this audit report will be made by EPA managers in
accordance with established EPA audit resolution procedures. Accordingly, the findings
described in this audit report are not binding upon EPA in any enforcement proceeding brought by
EPA or the Department of Justice.

ACTION REQUIRED

In accordance with EPA Order 2750, you, as the Action Official, are required to provide our
office with a written response to the audit report within 90 days of the report date. The response
should address all recommendations. For corrective actions planned but not completed by the
response date, reference to specific milestone dates will assist us in deciding whether to close this
report.

We have no objection to the release of this report to the public.

We appreciate the cooperation from your staff and the Idaho Division of Environmental Quality
staff during this audit. Should you or your staff have any questions about this report, please call
me at (415) 744-2445, or Charles Reisig of our Seattle Office at (206) 553-4032.

Attachment

Distribution: APPENDIX D
                          EXECUTIVE SUMMARY


INTRODUCTION
The Clean Air Act, as amended in 1990, gives EPA authority to set and enforce national standards
to protect human health and the environment from emissions that pollute the air. EPA Region 10
(the Region) has granted authority to the State of Idaho (the State) to implement and enforce the
stationary source air program through approval of the State Implementation Plan for the Control
of Air Pollution in the State of Idaho. The audit focused on enforcement activities related to
stationary source significant violators (SVs) in the State.



OBJECTIVES
The overall purpose of the audit was to evaluate the effectiveness of the State’s administration
and the Region's oversight of the stationary source air enforcement program. The specific
objectives were to evaluate whether the State’s:

•      Enforcement actions were appropriate and penalties were of sufficient magnitude to have
       a credible deterrent effect on major air pollution sources;

•      Enforcement activities resulted in timely return of sources to compliance; and

•      Inspection procedures ensure that all significant air pollution violations were identified.



RESULTS IN BRIEF
The State’s administration and the Region’s oversight of the stationary source air enforcement
program for SVs were not sufficient to ensure compliance with federal and State laws and
regulations. We believe that significant improvements are necessary to prevent threats to public
health and the environment.

The Idaho Division of Environmental Quality (DEQ) needs to make significant improvements in
its air enforcement program because: (i) enforcement actions were not appropriate and penalties
were not of sufficient magnitude to have a credible deterrent effect on major air pollution sources;
(ii) enforcement activities did not result in timely return of sources to compliance; and (iii)

                                                  i                                Report No. 8100249
inspection procedures did not ensure that all significant air pollution violators were identified. We
also found that: (i) emission reports were not reviewed timely to ensure sources were in
compliance with applicable emission limits; and (ii) SV data was not reported accurately.

The Region's oversight of DEQ’s enforcement program also needs significant improvement
because the Region did not: (i) establish enforcement criteria for assessing the State’s program;
(ii) perform any program reviews of the State’s air enforcement program after April 1993; and
(iii) use its enforcement authority effectively when the State was unwilling or unable to take
timely and appropriate enforcement action in response to violations. In addition, the Region’s
Federal Manager’s Financial Integrity Act (FMFIA) assurance letter to the Administrator did not
report the weaknesses in the administration and oversight of the State’s air enforcement program
as a material deficiency in management controls.

Lack Of Enforcement Against Many Stationary Source Significant Violators

Enforcement actions, including the use of penalties, were often insufficient to bring SVs into
compliance with federally enforceable air regulations and the Rules and Regulations for the
Control of Air Pollution in Idaho. Enforcement actions were neither made nor escalated to deter
SVs from gaining an economic advantage as a result of their violations. Of the few penalties that
had been assessed, none included amounts for the economic benefit gained from noncompliance.
Also, the penalties that we reviewed were significantly lower than the amounts under the
guidelines of EPA’s Clean Air Act Stationary Source Civil Penalty Policy.
In addition, DEQ was not meeting EPA’s Timely and Appropriate Enforcement Response to
Significant Air Pollution Violators guidance for timely resolution of the violations.

An adequate enforcement program had not been implemented in the State mainly because DEQ
focused on compliance assistance rather than enforcement to bring sources back into compliance.
However, when compliance assistance failed to timely bring the sources into compliance,
appropriate enforcement actions were not taken. Also, a contributing factor to DEQ’s insufficient
emphasis on enforcement was the Compliance Assurance Agreement between DEQ and the
Region. This enforcement agreement did not require DEQ to follow EPA enforcement guidance.

Insufficient Inspections

DEQ’s inspection activity did not provide adequate coverage to ensure that all SVs were
identified and reported timely. DEQ did not inspect sources as frequently as required by EPA
guidance which states that all major sources shall be inspected annually and all potential major
sources shall be inspected biennially. In addition, reports of inspections were not prepared timely
in accordance with DEQ’s guidance. As a result, there is increased risk that significant air
pollution violations will not be identified and resolved within a reasonable period of time, which
can adversely impact human health and the environment. These conditions occurred because the
Region had not required DEQ to meet EPA’s Inspection Frequency Guidance, and DEQ’s



                                                 ii                               Report No. 8100249
guidance for timely finalization of inspection reports was not adequately communicated to DEQ
inspectors.

Reviews Of Source Emissions Reports Were Not Timely

DEQ did not review source emissions reports timely, resulting in a significant backlog of
emissions reports that were pending review. These reports are required by permits and consent
orders and provide important emissions information that should be reviewed timely to determine
source compliance with applicable emission limits. A lack of review can lead to violations going
undetected for long periods of time and enforcement action not being taken timely. This
condition occurred because DEQ did not provide sufficient resources needed to eliminate this
backlog.

Significant Violator List Inaccurate

The Region did not ensure that data reported on the SV lists for the State was accurate and
complete. A review of 37 sources reported on SV lists for DEQ disclosed inaccurate data for half
of those sources. EPA uses the SV list as an oversight tool to ensure that SVs are addressed and
resolved timely and appropriately. EPA’s guidance provides definitions of an SV and criteria for
the various action dates reported on the SV list. Inaccurate SV reporting hinders the Region’s
ability to monitor the timeliness and appropriateness of enforcement actions and resolution of
SVs. This condition occurred because the Region did not establish adequate procedures to ensure
that the data reported on the SV lists conformed to the reporting criteria specified by EPA’s
guidance.

Insufficient Oversight By The Region

The Region did not perform sufficient oversight of the State’s air enforcement program. This
contributed to the weaknesses in the State’s enforcement program which did not meet Clean Air
Act requirements. Specifically, the Region did not: (i) establish criteria for assessing the State’s
enforcement program; (ii) perform any program reviews of DEQ’s air enforcement program after
April 1993; (iii) use its enforcement authority effectively when the State was either unable or
unwilling to pursue timely and appropriate enforcement action in response to violations; or
(iv) report the weaknesses in the State’s enforcement program as management control deficiencies
to the EPA Administrator as required by the Federal Mangers Financial Integrity Act.

The Region attributed the conditions to three main causes: (i) a loss of positions and experienced
staff because of two recent reorganizations; (ii) difficulty in determining the level of oversight to
provide because the states have requested more autonomy and flexibility under performance
partnership agreements; and (iii) a lack of clear criteria defining oversight under performance
partnership agreements.




                                                 iii                               Report No. 8100249
RECOMMENDATIONS
Principal recommendations to the Regional Administrator are to:

•      Require DEQ to develop and implement enforcement policies and procedures which are
       consistent with EPA enforcement guidance.

•      Ensure major and potential major source inspection coverage is in accordance with EPA’s
       Inspection Frequency Guidance.

•      Implement procedures that ensure SV data is accurately reported on the Region’s SV lists.

•      Revise the Compliance Assurance Agreement with DEQ to include EPA enforcement
       guidance as criteria for assessment of the State’s stationary air enforcement program.

•      Conduct, at least annually, evaluations of the State’s air enforcement program for SVs for
       consistency with EPA guidance.

•      Report the weaknesses in the administration and oversight of the stationary source air
       enforcement program for SVs in the State as a management control deficiency in the next
       FMFIA assurance letter to the EPA Administrator.

•      Withhold final approval of the State’s Title V operating permit program until the State
       establishes procedures for enforcement which are consistent with EPA’s enforcement
       guidance.

•      Assume responsibility for enforcement of the stationary source air program if the State is
       unable or unwilling to implement an enforcement program consistent with EPA guidance
       and the Clean Air Act.

Auditee Comments and OIG Evaluation

A draft report was provided to the Region and DEQ on July 31, 1998 for their comments. Both
the Region and DEQ responded to the draft report on August 31, 1998 and their responses are
included as APPENDIX C to this report. The Region concurred with the recommendations and
described corrective actions that have been taken or will be taken. It also commented that it has
already taken a number of actions to begin addressing some of the major findings reported. These
actions included frank and open discussions at the highest levels of management in both agencies
to jointly work through the steps to improve DEQ’s air enforcement program.

DEQ did not concur with the findings and recommendations. It stated that its programs have
performed according to established agreements and in a manner protective of public health and

                                                iv                              Report No. 8100249
the environment at all times. It commented that the report inappropriately emphasized differences
in DEQ’s administration and implementation of its program compared to a preestablished set of
national criteria that DEQ had never agreed to strictly comply with. In addition, DEQ stated that
strict adherence to national policy as opposed to the operating principles DEQ agreed to operate
its program under in no way points to poor performance or ineffectiveness in meeting its goals.

The corrective actions taken or planned by the Region will significantly improve the stationary
source air enforcement program in Idaho. We agree with those actions. In regard to DEQ’s
response, we believe the conditions described in this report clearly demonstrate a need for major
improvements. DEQ’s enforcement actions were not consistent with EPA enforcement guidance
and often were insufficient to bring SVs into compliance with federally enforceable air regulations
and the Rules and Regulations for the Control of Air Pollution in Idaho. While the Compliance
Assurance Agreement between the Region and DEQ did not specifically require DEQ to follow
EPA enforcement guidance, it did state that it is DEQ’s goal to build an adequate and balanced
compliance program which will result in enforcement processing consistent with EPA’s SV
guidance.




                                                 v                               Report No. 8100249
[This page was intentionally left blank]




                   vi                      Report No. 8100249
                                   TABLE OF CONTENTS

                                                                                                                              Page

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ix

CHAPTERS

1 -INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
      PURPOSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
      BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
      SCOPE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
      PRIOR AUDIT COVERAGE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

2 - LACK OF ENFORCEMENT AGAINST MANY STATIONARY
    SOURCE SIGNIFICANT VIOLATORS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
       BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
       ENFORCEMENT ACTIONS NEITHER MADE NOR ESCALATED . . . . . . . . . . . . 10
       DEQ FOCUSED ON COMPLIANCE ASSISTANCE . . . . . . . . . . . . . . . . . . . . . . . . . 13
       MINIMAL PENALTIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
       DEQ’S PENALTY POLICY INCONSISTENT WITH EPA’S
         PENALTY POLICY AND THE STATE’S EPHA . . . . . . . . . . . . . . . . . . . . . . . . . 16
       UNTIMELY ENFORCEMENT ACTIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
       CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
       RECOMMENDATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
       REGION COMMENTS AND OIG EVALUATION . . . . . . . . . . . . . . . . . . . . . . . . . . 20

3 - INSUFFICIENT INSPECTIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             21
       BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      21
       INADEQUATE INSPECTION COVERAGE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                              22
       INSPECTION REPORTS NOT TIMELY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                         23
       VIOLATIONS NOT IDENTIFIED AND RESOLVED TIMELY . . . . . . . . . . . . . . . .                                             23
       DEQ NOT REQUIRED TO MEET EPA’S INSPECTION GUIDANCE . . . . . . . . . . .                                                  24
       GUIDANCE RECENTLY FINALIZED . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                         25
       RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             25
       REGION COMMENTS AND OIG EVALUATION . . . . . . . . . . . . . . . . . . . . . . . . . .                                    26


                                                                vii                                         Report No. 8100249
4 - REVIEWS OF SOURCE EMISSIONS REPORTS WERE NOT TIMELY . . . . . . . . . . . .                                                 27
       BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     27
       BACKLOG OF EMISSIONS REPORTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                       27
       RECOMMENDATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           30
       REGION COMMENTS AND OIG EVALUATION . . . . . . . . . . . . . . . . . . . . . . . . . .                                   30

5 - SIGNIFICANT VIOLATOR LIST INACCURATE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                            31
       BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     31
       DATA NOT ACCURATE OR COMPLETE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                            31
       RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            33
       REGION COMMENTS AND OIG EVALUATION . . . . . . . . . . . . . . . . . . . . . . . . . .                                   33

6 - INSUFFICIENT OVERSIGHT BY THE REGION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                            35
       BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     36
       ENFORCEMENT CRITERIA NOT ESTABLISHED . . . . . . . . . . . . . . . . . . . . . . . . .                                   37
       PROGRAM REVIEWS NOT PERFORMED . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                              38
       REGIONAL ENFORCEMENT AUTHORITY NOT USED EFFECTIVELY . . . . . . .                                                        38
       FAILURE TO REPORT DEFICIENCY IN MANAGEMENT CONTROLS . . . . . . . .                                                      39
       REGION ACKNOWLEDGES ADDITIONAL OVERSIGHT NEEDED . . . . . . . . . . .                                                    39
       COMPLIANCE ASSURANCE AGREEMENT TO BE REVISED . . . . . . . . . . . . . . .                                               40
       PROGRAM EVALUATIONS UNDER DEVELOPMENT . . . . . . . . . . . . . . . . . . . . .                                          41
       REASONS ENFORCEMENT AUTHORITY NOT USED EFFECTIVELY . . . . . . . .                                                       41
       CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   42
       RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            43
       REGION COMMENTS AND OIG EVALUATION . . . . . . . . . . . . . . . . . . . . . . . . . .                                   44

EXHIBITS

1 - DEQ’S ADMINISTRATIVE ENFORCEMENT PROCESS . . . . . . . . . . . . . . . . . . . . . . . .
45

2 - IDAHO DEQ - LIST OF 24 SIGNIFICANT VIOLATORS AUDITED . . . . . . . . . . . . . . . 47

3 - EPA REGION 10 - LIST OF 10 SIGNIFICANT VIOLATORS AUDITED . . . . . . . . . . . . 49

APPENDICES

A - AUDIT SCOPE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 51

B - OTHER MATTERS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 55

C - AUDITEES’ RESPONSE TO DRAFT REPORT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 59



                                                              viii                                       Report No. 8100249
D - REPORT DISTRIBUTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
      69




                                                            ix                                       Report No. 8100249
x   Report No. 8100249
                ABBREVIATIONS


AFS     EPA’s Aerometric Information Retrieval System Facility Subsystem
CAA     Clean Air Act, as amended in 1990
CAR     Compliance Action Referral
CEMS    Continuous Emissions Monitoring Systems
CFR     Code of Federal Regulations
DEQ     Idaho’s Division of Environmental Quality
EO      Ethylene Oxide
EPA     Environmental Protection Agency
EPHA    Idaho Environmental Protection and Health Act
FMFIA   Federal Managers’ Financial Integrity Act
NOV     Notice of Violation
OECA    EPA’s Office of Enforcement and Compliance Assurance
OIG     Office of Inspector General
PTC     Permit to Construct
SIP     State Implementation Plan
SV      Significant Violator




                                xi                            Report No. 8100249
[This page was intentionally left blank]




                  xii                      Report No. 8100249
                    CHAPTER 1
                   INTRODUCTION


PURPOSE      The overall purpose of the audit was to evaluate the effectiveness
             of the State of Idaho’s administration and EPA Region 10's
             oversight of the stationary source air enforcement program. The
             specific objectives were to evaluate whether Idaho’s:

             •      Enforcement actions were appropriate and penalties were of
                    sufficient magnitude to have a credible deterrent effect on
                    major air pollution sources;

             •      Enforcement activities resulted in timely return of sources to
                    compliance; and

             •      Inspection procedures ensure that all significant air pollution
                    violations were identified.


BACKGROUND   The Clean Air Act (CAA), as amended in 1990, gives EPA
             authority to set and enforce national standards to protect human
             health and the environment from emissions that pollute the air. The
             CAA assigns primary responsibility to the states for ensuring
             adequate air quality. EPA is responsible for issuing regulations to
             implement the CAA.

             The CAA requires EPA to identify and set national standards for air
             pollutants which might endanger public health. EPA has set
             national standards for six criteria pollutants: (i) ozone; (ii) carbon
             monoxide; (iii) sulfur dioxide; (iv) nitrogen dioxide; (v) lead; and
             (vi) particulate matter. The standards specify acceptable air
             pollution concentrations for a geographic area, and the states must
             take action to ensure facilities meet these standards. Geographic
             areas which persistently exceed the national standards may be
             designated “nonattainment” areas. Idaho has five nonattainment
             areas: Sandpoint, Pinehurst, northern Ada County, and a portion of
             Power and Bannock counties.



                               1                                Report No. 8100249
                                   The Region’s enforcement principles and expectations are outlined
                                   in the Region’s Enforcement and Compliance Strategy (Working
                                   Draft for fiscal 1997) and the EPA Strategic Plan (September
                                   1997). According to EPA strategy, one of the purposes of the
                                   Agency is to ensure that federal laws protecting human health and
                                   the environment are enforced fairly and effectively. Traditional
                                   enforcement is one of the most powerful and effective tools EPA
                                   has to ensure the protection of human health and the environment.
                                   The public expects EPA to ensure that minimum federal
                                   environmental standards are maintained across State boundaries, to
                                   prevent the development of pollution havens, and to take
                                   appropriate enforcement action. EPA works to help the regulated
                                   community understand and fully comply with environmental
                                   requirements, punish violators and deter future violations, and level
                                   the economic playing field for law-abiding companies. EPA
                                   requires penalty assessments to include gravity and economic
                                   benefit components to establish a deterrence to noncompliance.
                                   Accomplishment of EPA’s environmental goals depends on a
                                   strong enforcement and compliance assurance program, with active
                                   involvement of State partners to encourage appropriate behavior by
                                   the regulated community.

                                   EPA’s Timely and Appropriate Enforcement Response to
                                   Significant Air Pollution Violators provides guidance for EPA and
                                   State enforcement of significant air pollution violators. An SV is
                                   any “major” (as defined by the CAA) or “synthetic minor”1
                                   stationary source of air pollution which is in violation of a federally
                                   enforceable regulation. The guidance establishes time frames for
                                   identifying, addressing, and resolving SVs. EPA has a program to
                                   track and report on SVs in its national database known as the
                                   Aerometric Information Retrieval System Facility Subsystem
                                   (AFS).

Authority for                      The Region granted authority to the State for implementation and
Idaho’s Air                        enforcement of the stationary source air program through approval
Enforcement                        of the State Implementation Plan (SIP) for the Control of Air
Program                            Pollution in Idaho. The plan was approved by EPA during 1974
                                   and has been periodically revised in response to federal
                                   requirements and State and local needs. The Rules and
                                   Regulations for the Control of Air Pollution in Idaho establish air

1. Synthetic minor sources are sources whose potential emissions have been restricted to below major source
emissions thresholds through accepting voluntary emission limits in their construction or operating permits.
                                   quality rules that must be followed by sources located in the State.

                                                        2                                    Report No. 8100249
                    Most of these rules have been incorporated into the SIP, and as a
                    result, are federally enforceable.

                    The fiscal 1993 Compliance Assurance Agreement for Air between
                    the Region and DEQ defines the respective roles and
                    responsibilities of the two agencies for the air pollution control
                    program. This agreement covers areas such as inspections,
                    enforcement, and recording compliance activity at facilities in AFS.
                    The agreement states that DEQ has primary responsibility for
                    enforcement of the Idaho Environmental Protection Health Act and
                    the Rules and Regulations for the Control of Air Pollution in
                    Idaho. Under the agreement EPA may take unilateral enforcement
                    action when it determines that DEQ has not taken timely or
                    appropriate action concerning a violation or alleged violation which
                    is federally enforceable.

                    DEQ takes the initial lead on SV enforcement cases which
                    represent violations of the State’s air pollution rules. DEQ’s goal is
                    to build an adequate and balanced program resulting in enforcement
                    processing consistent with EPA’s timely and appropriate guidance
                    for SVs. EPA has authority to assume the enforcement lead in
                    cases when it becomes apparent that the State is unable or unwilling
                    to resolve a violation in a timely and appropriate manner.

DEQ’s               DEQ is the environmental protection unit under the Idaho
Organizational      Department of Health and Welfare. DEQ’s Air and Hazardous
Structure           Waste Division is responsible for administering permit and
                    compliance/enforcement programs for both air quality and
                    hazardous waste, and is comprised of four bureaus. The Air
                    Quality Permitting Bureau is responsible for the air quality
                    permitting program. The air quality section within the Compliance
                    Assurance Bureau is responsible for the air compliance/enforcement
                    program. Besides DEQ’s central office, air staff are located in six
                    regional offices. The State of Idaho’s Office of the Attorney
                    General provides legal counsel to management and technical staff at
                    DEQ and assists with formal enforcement actions.

DEQ’s Enforcement   EXHIBIT 1 illustrates the administrative enforcement process used
Process and Tools   by DEQ. DEQ identifies violations primarily through inspections.
                    It also identifies violations by reviewing self-monitoring emissions
                    reports and investigating citizen complaints. Once a violation has
                    been identified, DEQ’s procedures are to issue a warning letter
                    which notifies the source of the violation and requests a response or


                                      3                                Report No. 8100249
                     corrective measures to be implemented within a given time frame.
                     If the source fails to cooperate or inadequately responds to the
                     warning letter, a Notice of Violation (NOV) may be issued. A
                     NOV is a formal document which assesses penalties for the
                     violations cited in the warning letter. After a NOV is issued, the
                     source has 15 days to contact DEQ to request and schedule a
                     compliance conference. The purpose of the compliance conference
                     is to discuss and negotiate terms and conditions of a voluntary
                     consent order which will result in resolution of the alleged
                     violations cited in the NOV.

                     Besides the administrative enforcement process described above,
                     DEQ can also use civil enforcement as necessary. Civil
                     enforcement is commenced through a referral to the State’s Office
                     of the Attorney General. As an alternative to formal enforcement
                     actions, DEQ often uses compliance assistance tools, such as permit
                     modifications and technical assistance, to bring sources into
                     compliance with permits and with State and federal regulations.

Status of Title V    Under Title V of the CAA, states are required to develop operating
Operating Permit     permit programs that meet certain federal criteria. DEQ does not
Program Delegation   yet have full approval by EPA for a Title V operating permit
                     program, although it does have interim approval. Under the interim
                     approval, DEQ has the authority to issue Title V operating permits.
                     During our audit period (October 1996 through December 1997)
                     DEQ had not yet issued any Title V operating permits. As a result,
                     sources in Idaho generally operated under permits to construct
                     (PTC). 40 CFR Parts 70.4 and 70.10 require an adequate
                     inspection program and demonstration that the State can adequately
                     implement an enhanced compliance assurance program prior to
                     approving a Title V operating permit program.


SCOPE AND            We performed this audit in accordance with the Government
METHODOLOGY          Auditing Standards (1994 Revision) issued by the Comptroller
                     General of the United States as they apply to performance audits.
                     Our review included tests of program records and other auditing
                     procedures we considered necessary for the purposes of expressing
                     an opinion based on our audit objectives. We also reviewed the
                     Federal Managers’ Financial Integrity Act report for 1997. The
                     report did not identify any material weaknesses, or vulnerabilities,
                     relating to the issues discussed in this report. See APPENDIX A
                     for scope and methodology details.


                                       4                               Report No. 8100249
PRIOR AUDIT   There have been no prior audits performed on the Region’s
COVERAGE      oversight or Idaho’s administration of the stationary source air
              enforcement program. However, on March 30, 1998, the EPA
              OIG issued an audit report (Report No. E1KAF7-10-0015-
              8100094) entitled Region 10's Oversight of Washington’s Air
              Compliance and Enforcement Program. The report concluded that
              the Region could improve its oversight activities to ensure more
              accurate reporting of SVs by the local and State of Washington air
              pollution agencies.




                                5                              Report No. 8100249
[This page was intentionally left blank]




                   6                       Report No. 8100249
                   CHAPTER 2
LACK OF ENFORCEMENT AGAINST MANY STATIONARY
        SOURCE SIGNIFICANT VIOLATORS

            DEQ did not have an effective enforcement program to ensure
            compliance with federal and State laws and regulations, and to
            prevent threats to public health and the environment. Enforcement
            actions, including the use of penalties, were often insufficient to
            bring significant violators into compliance with federally
            enforceable air regulations and the Rules and Regulations for the
            Control of Air Pollution in Idaho. We reviewed DEQ’s
            enforcement actions for 24 SVs (39 percent of the SVs that DEQ
            had enforcement responsibility for during the 15-month period
            ended December 31, 1997) and concluded that:

            •      Enforcement actions were either not made or were not
                   escalated against 18 of the 24 SVs to deter them from
                   gaining an economic advantage as a result of their
                   violations. In many instances, the sources had a history of
                   repeated and continuous violations of permit conditions that
                   lasted for years.

            •      Of the few penalties that had been assessed, none included
                   amounts as penalties for the economic benefit gained from
                   noncompliance. Also, the three penalties that we reviewed
                   (98 percent of the dollar amount of penalty assessments
                   during the 15-month period) were significantly lower than
                   the amounts under the guidelines of EPA’s Clean Air Act
                   Stationary Source Civil Penalty Policy.

            •      DEQ was not meeting EPA’s Timely and Appropriate
                   Enforcement Response to Significant Air Pollution
                   Violators guidance for timely resolution of the violations.
                   Violations for 22 of the 24 SVs were either not addressed
                   or not resolved within 150 days of the SV designation.
                   There were 18 SVs that remained unaddressed for periods
                   from 175 days to 1,636 days.



                              7                               Report No. 8100249
             An adequate enforcement program had not been implemented in the
             State because DEQ mainly focused on compliance assistance rather
             than enforcement to bring sources back into compliance. However,
             when compliance assistance failed to timely bring the sources into
             compliance, appropriate enforcement actions were not taken. Also,
             a contributing factor to DEQ’s insufficient emphasis on
             enforcement was the Compliance Assurance Agreement between
             DEQ and the Region. This enforcement agreement did not require
             DEQ to follow EPA enforcement guidance (see Chapter 6 for
             additional comments on this issue).

             DEQ’s lack of enforcement, and small or no penalties, gave SVs a
             financial incentive to continue polluting rather than bringing their
             facilities into compliance.


BACKGROUND   EPA’s Compliance and Enforcement Manual (1986) provides for
             essentially two enforcement options to bring continuous and repeat
             violators into compliance and deter future violations. Escalating
             the type of enforcement action is one option. Actions for escalating
             enforcement include, in order of increasing significance: (i) issuing
             notices of violation (NOV); (ii) entering into consent or compliance
             orders; and (iii) obtaining court-ordered injunctions. The second
             enforcement option is to escalate monetary penalties.

             EPA’s Timely and Appropriate Enforcement Response to
             Significant Air Pollution Violators (the SV guidance) (1992)
             requires that a NOV be issued within 45 days of designation as an
             SV. Furthermore, if the violation cannot be resolved within 150
             days of the SV designation, the SV guidance requires that the
             violation be addressed within the 150-day period either through:
             (i) a legally enforceable order; or (ii) a referral to the State attorney
             general or Federal Department of Justice for an adjudicatory
             enforcement hearing or judicial action.

             According to the SV guidance, EPA’s national goal with respect to
             violations of the Clean Air Act is to have all federal, State, and local
             enforcement actions assess penalties sufficient to achieve effective
             deterrence, both for the actual subject of the enforcement action
             and for the regulated community as a whole. Furthermore, the
             guidance states that EPA expects that when SVs are resolved
             agencies will obtain an appropriate penalty, including one to offset
             the violator’s economic gain.


                                8                                  Report No. 8100249
EPA’s Clean Air Act Stationary Source Civil Penalty Policy
(EPA’s Penalty Policy) (1991) requires penalty assessment
calculations to include gravity and economic benefit components to
establish a deterrence. The gravity of violation component
considers three factors in establishing a penalty amount: (i) actual
or possible harm; (ii) importance to the regulatory scheme; and
(iii) size of the violator. The gravity component is designed to
equalize violations so that equally serious violations are treated the
same way. The economic benefit of noncompliance component
includes both delayed and avoided costs. This element is intended
to prevent violators from benefitting economically from their
noncompliance so that they do not have an unfair advantage over
competitors who complied with environmental requirements.

EPA’s Penalty Policy includes guidelines on acceptable reasons for
mitigating penalties during settlement negotiations with the
violator. It suggests appropriate limits on reductions during these
negotiations. The gravity amount may be mitigated by up to 30
percent if criteria specified by the guidance are met by the violator.
Generally, the economic benefit component may not be mitigated.

The Region entered into a Compliance Assurance Agreement for
Air with DEQ during fiscal 1993 which establishes roles and
responsibilities of each of the parties for administration of the
stationary air pollution control program in Idaho. The agreement
states that DEQ must address all violations of the Idaho
Environmental Protection Health Act and Rules and Regulations
for the Control of Air Pollution in Idaho. However, the agreement
does not require DEQ to follow EPA’s enforcement guidance (i.e.,
EPA’s Compliance and Enforcement Manual, SV guidance, and
Penalty Policy). Instead, the agreement states that the Region
recognizes that DEQ does not currently have sufficient resources to
consistently process cases in accordance with EPA’s SV guidance.
However, the agreement also states that it is DEQ’s goal to build
an adequate and balanced compliance program which will result in
enforcement processing consistent with the EPA’s SV guidance.

DEQ regulates air pollution stationary sources under the Idaho
Department of Health and Welfare Rules and Regulations, Title 1,
Chapter 1, Rules and Regulations for the Control of Air Pollution
in Idaho. The Idaho Environmental Protection and Health Act
(EPHA) provides DEQ with the authority to assess civil penalties
against air pollution violators. The EPHA gives DEQ the authority


                   9                                Report No. 8100249
                                   to assess a civil penalty of $10,000 for each separate air violation or
                                   $10,000 for each day of a continuing violation. The Act also
                                   establishes a 2-year statute of limitations for the pursuit of air
                                   pollution violations.

                                   DEQ had enforcement responsibility for 62 SVs during the
                                   15-month period ended December 1997. According to DEQ’s
                                   records, 18 of the SVs were brought back into compliance during
                                   the 15-month period.


ENFORCEMENT                        Enforcement actions were neither made nor escalated against 18 of
ACTIONS                            the 24 SVs reviewed to deter them from gaining an economic
NEITHER MADE                       advantage as a result of their violations and to ensure protection of
NOR ESCALATED                      public health and the environment. Of the 18 SVs, enforcement
                                   actions were not initiated against 5 violators, enforcement was not
                                   escalated to penalty assessments for 12 violators, and penalty
                                   assessments for 1 other SV were waived. In many instances, the
                                   sources had a history of repeated and continuous violations of
                                   permit conditions that lasted for years.

                                   Furthermore, only 5 of the 24 SVs reviewed had been addressed or
                                   resolved during the 15-month period ending December 1997. As a
                                   result, we concluded that DEQ’s enforcement activities had not
                                   been effective in achieving and maintaining compliance. EXHIBIT
                                   2 summarizes the results of our evaluation of the 24 SVs2, and the
                                   following 7 examples illustrate the types of violations where
                                   sufficient enforcement was not pursued by DEQ.

                                   SV-5, a toxics storage and disposal facility. This stationary source
                                   was designated as an SV in November 1994 for failure in 1993 to
                                   obtain a PTC for a cement batch plant and screening operations. In
                                   1996 this SV was out of compliance with the State’s Title V
                                   Operating Permit requirements because it had not submitted a Title
                                   V Application for any of its emission points: cement plant;
                                   screening operations; facilities containing hazardous wastes;
                                   stabilization facility; and rail transfer facility. Although the source
                                   had been in violation of Idaho’s permitting requirements since
                                   1993, no enforcement actions had been taken as of

2. For purposes of this report, we have identified SVs with a number in lieu of the violator’s name because
enforcement actions might not have been completed and the information could be considered enforcement
sensitive.



                                                        10                                    Report No. 8100249
December 1997.

SV-6, a manufacturing facility. This major stationary source was
designated an SV in July 1997. The 1997 violation resulting in the
SV designation was a repeat of a violation identified in 1995. As of
December 1997, enforcement actions were not escalated beyond a
warning letter even though the facility had repeatedly violated
emission limits specified by its PTC since 1995. These violations
included failing to conduct a performance test for particulate matter
emissions and exceeding, by six times, the particulate matter
emission limit. This source had a history of prior violations and
citizen complaints about its air emissions since the early 1980's.

SV-11, a mining and processing facility. This major stationary
source had a long history of air quality violations and was identified
as an SV in July 1996. DEQ made numerous attempts through the
administrative process to get this facility into compliance, but those
actions were not escalated enough to prevent the owner from
operating the plant and violating air quality standards.

In a letter dated August 30, 1996, the current owner stated that
despite improvements that had been made, the facility was old and
would never be able to be brought into compliance. The owner,
however, stated that it had a compelling business requirement to
sustain production and stated that it would continue to
intermittently operate the facility until a new facility was in
operation.

In a August 25, 1997 memorandum to the Special Assistant to the
Governor, DEQ stated that it had been unsuccessful in achieving
resolution of both past and ongoing violations by SV-11 and that
the case was referred to the Office of the Attorney General for
commencement of civil action. It stated that the owner continued
to operate the mill knowingly and willfully violating Idaho’s air
quality rules and the terms of a consent order.

That same day, the Office of the Attorney General wrote a letter to
the SV stating that based upon conversations with the owner:
(i) the mill could not be operated in conformance with either the
consent order or the Rules and Regulations for the Control of Air
Pollution in Idaho and; (ii) the owner agreed to cease operations of
the mill until it could demonstrate that the mill can be operated in


                  11                                Report No. 8100249
conformance with requirements. The letter also advised that as a
good faith gesture, and to encourage compliance, the DEQ was
conditionally returning a check from the SV in the amount of
$3,250. The check was tendered as a partial payment for numerous
penalties incurred for violations of the consent order. In addition to
returning the $3,250, other penalties in 1996 and 1997 ($3,250) had
not been paid as of December 1997.

As a result, the owner achieved the economic benefit of
intermittently operating the mill while avoiding any financial penalty
for violating air quality standards over a period of about 1½ years.
In October 1997 the facility failed performance tests because it still
could not operate in compliance with requirements. An additional
test was planned in 1998.

SV-17, a sawmill. This synthetic minor stationary source was
designated as an SV in June 1996 for exceeding the visible emission
limit and noncompliance with construction notification
requirements of the facility’s PTC. DEQ issued warning letters for
this violation and subsequent violations during a 1½-year period,
but it did not escalate its enforcement actions to bring the facility
into compliance. Instead, DEQ brought the facility into compliance
during February 1998 by establishing less stringent emission limits
through a modification of the facility’s PTC.

SV-20, a State facility. This major stationary source was
designated as an SV in July 1995 for boiler emissions that exceeded
Idaho’s 20 percent visible emissions limit. At the time of this
violation, the SV was under its second consent order. The first
consent order was established in December 1986 to address the
facility’s failure to obtain a PTC for a boiler and the second order
was established in March 1995 to address a 2-year history of
emissions violations. Although the facility continued to exceed
emission limits established under the second consent order in 1995
and 1996, DEQ did not assess any penalties. Instead, DEQ issued a
warning letter and established a third consent order in November
1996. Subsequent data reports from the source showed periodic
excess emissions, but DEQ had not made an evaluation to
determine whether those emissions were violations of the third
consent order.

SV-21, a portable rock crusher plant. This synthetic minor source
was designated as an SV in October 1995 for exceeding visible


                  12                               Report No. 8100249
                                 emissions limits established by the plant’s PTC. Although the
                                 source was found to have similar significant PTC violations in
                                 subsequent years, DEQ did not escalate enforcement actions
                                 beyond warning letters. As of December 1997, the plant was still
                                 out of compliance.

                                 SV-24, a manufacturing facility. This synthetic minor stationary
                                 source was identified as an SV in September 1996 for failing to
                                 comply with several requirements of a January 1995 PTC, including
                                 a requirement to conduct a source test on an acid scrubber. DEQ
                                 did not proceed with an enforcement action in response to the
                                 violations. Instead, it issued an operating permit in March 1997
                                 which superseded the PTC and eliminated the requirement to
                                 conduct the source test.


DEQ FOCUSED                      The main reason for DEQ’s lack of enforcement was that the
ON COMPLIANCE                    Division had implemented an air pollution prevention program that
ASSISTANCE                       focused on compliance assistance rather than enforcement to bring
                                 sources back into compliance. A contributing factor to DEQ’s
                                 insufficient emphasis on enforcement was the Compliance
                                 Assurance Agreement with the Region. This enforcement
                                 agreement did not require DEQ to follow EPA’s Compliance and
                                 Enforcement Manual, SV guidance, and Penalty Policy. In its
                                 comments to our position papers3, DEQ stated:

                                         ... DEQ by virtue of its Compliant Assurance
                                         Agreement entered into with EPA in 1993,
                                         maintains that the terms of the agreement describe
                                         the efforts that will be taken to ensure compliance.
                                         The fact the DEQ has complied with those terms
                                         and USEPA has not sought revision of the
                                         agreement since it was drafted, would tend to
                                         support an argument that DEQ’s program is, and
                                         has been, acceptable to EPA.


 3. Position papers which described our tentative findings and recommendations were issued to DEQ and the
Region during June 1998. DEQ and the Region were requested to provide written comments on the accuracy and
fairness of our findings. We received comments from both DEQ and the Region.




                                                    13                                  Report No. 8100249
DEQ views enforcement as a last resort to be used only when other
avenues, such as compliance assistance and maximum flexibility in
regulatory and permit interpretation, have been exhausted. For
example, in a written response to an inquiry from a representative in
Idaho’s State Legislature, dated January 1996, the DEQ
Administrator stated:

       Although DEQ can impose penalties as indicated
       above, we would put forth significant guidance and
       additional energies to help sources avoid penalties.
       Penalties and fines are imposed as a last resort in an
       attempt to bring a source into complying with
       Idaho’s air rules when all other efforts have failed.

As part of its compliance assistance focus, DEQ escalated
enforcement actions beyond a warning letter only for cases that
were perceived by the Division to be recalcitrant, egregious, and
harmful to the environment. Furthermore, in some instances DEQ
avoided initiating or escalating enforcement actions for PTC
compliance violations by issuing permit modifications that provided
less restrictive compliance requirements and increased emission
limits.

In response to our position papers, DEQ also stated:

       ... DEQ’s investment into compliance assistance was
       made with Region X’s knowledge and has been
       considered to be following the lead set by EPA, and
       as being consistent with what is being similarly
       adopted by state regulatory agencies all across the
       country.

We agree that compliance assistance can be an effective tool for
educating sources on air pollution requirements and promoting
compliance. However, DEQ’s approach to enforcement of air
pollution requirements is not consistent with EPA guidance.
Although EPA’s Operating Principles for an Integrated EPA
Enforcement and Compliance Assurance Program (1996)
recognizes compliance assistance, the operating principles state:

       Compliance assistance is not a substitute for the
       regulated industries’ responsibility to learn and



                 14                                Report No. 8100249
                   comply with laws and regulations. It complements
                   but does not replace appropriate enforcement.

            DEQ’s focus on compliance assistance has not been effective in
            bringing SVs back into compliance. As discussed earlier, only 5 of
            24 SVs reviewed were either addressed or resolved during the
            15-month period ended December 1997. Many of those SVs were
            out of compliance for extended periods. Allowing SVs to remain
            out of compliance for extended periods could adversely affect
            public health and the environment.


MINIMAL     DEQ’s penalty assessments did not provide a deterrence to
PENALTIES   noncompliance with the Rules and Regulations for the Control of
            Air Pollution in Idaho. DEQ assessed penalties against four SVs
            during the 15-month period covered by our review. None included
            amounts as penalties for the economic benefit gained from
            noncompliance.

            We reviewed the penalties for three of the four SVs (98 percent of
            the dollar amount of penalty assessments during the 15-month
            period) and found that the penalties were significantly lower than
            the amounts under the guidelines of EPA’s Clean Air Act
            Stationary Source Civil Penalty Policy. The three penalty cases we
            reviewed are discussed below.

            SV-2 and SV-3, portable rock crushing plants. Two of the cases
            where penalties were assessed were SV-2 and SV-3, which were
            designated as SVs in August 1996 for being out of compliance with
            their PTCs. DEQ assessed penalties totaling $89,400 for the
            gravity portion of the violations which was about 57 percent of the
            $158,000 in penalties that could have been assessed under EPA’s
            Penalty Policy.

            As of the end of 1997, DEQ was pursuing settlement negotiations
            with the SVs and proposing to reduce the penalties to less than
            $15,000. At this time, the SVs had been out of compliance for
            almost 500 days. Under EPA’s Penalty Policy, penalties may be
            reduced under certain circumstances such as the subject’s degree of
            cooperation. The policy also requires that the justification for
            penalty reductions be adequately documented. DEQ’s penalty
            reductions were not based on EPA’s Penalty Policy and the
            justification for the proposed reductions was not documented.


                             15                              Report No. 8100249
                  SV-7, a sawmill. This major stationary source was designated as an
                  SV during September 1996 for failing to submit a Title V operating
                  permit application to DEQ. DEQ issued a NOV during
                  January 1997 which assessed a penalty of $10,000 for the gravity
                  portion of the violation which was less than one-third of the
                  $32,000 that could have been assessed under EPA’s Penalty Policy.

                  DEQ settled the enforcement action in April 1997, with the SV
                  agreeing to pay a $250 penalty. According to the DEQ, the penalty
                  was mitigated because the SV: (i) submitted its permit application
                  to DEQ in February 1997; (ii) claimed that it could not afford the
                  $10,000 penalty; and (iii) offered to pay a $250 penalty. With
                  respect to the significant reduction in the penalty due to the
                  company’s claim of financial hardship, DEQ did not evaluate the
                  company’s ability to pay.


DEQ’S PENALTY     There were two major causes to DEQ’s low penalty amounts.
POLICY            First, the Compliance Assurance Agreement between the Region
INCONSISTENT      and DEQ did not require the State to have a penalty policy which
WITH EPA’S        was consistent with EPA’s Penalty Policy.
PENALTY POLICY
AND THE STATE’S   Specifically, DEQ’s policy establishes a gravity component which is
EPHA              significantly below EPA’s Penalty Policy and does not include an
                  economic benefit component. Furthermore, DEQ’s policy does not
                  establish sufficient guidelines for reducing or increasing the gravity
                  component.

                  Second, DEQ’s penalty policy is not consistent with the State’s
                  EPHA. The EPHA grants DEQ the authority to assess a civil
                  penalty of $10,000 for each separate air violation or $10,000 for
                  each day of a continuing violation. DEQ’s policy is inconsistent
                  because it authorizes the assessment of a civil penalty of $10,000
                  for each separate violation, but restricts penalties for continuing
                  violations to no more than $1,000 per day.

                  During the audit, a representative of the State’s Office of the
                  Attorney General advised us that the State’s statutes do not prevent
                  DEQ from establishing a policy to include an economic benefit
                  component in its penalties. Therefore, DEQ does have the
                  authority to include the economic benefit obtained from
                  noncompliance in penalty assessments.



                                    16                               Report No. 8100249
                                 In its comments to our position papers, DEQ stated:

                                          ... However, as policy, and because DEQ never
                                          stated its intent to comply with federal policy, DEQ
                                          assumed EPA found the state’s penalty assessments
                                          were acceptable.

                                 In order to provide an effective deterrence to noncompliance, DEQ
                                 needs to develop and implement a penalty policy that is consistent
                                 with the Rules and Regulations for the Control of Air Pollution in
                                 Idaho and EPA’s Penalty Policy. This will require a penalty policy
                                 that includes significant assessments for both the gravity of
                                 violations and the economic benefit gained for noncompliance. As
                                 discussed above, DEQ has the statutory authority to assess up to
                                 $10,000 for each violation or $10,000 for each day of a continuing
                                 violation. Therefore, DEQ has the legal authority to implement a
                                 penalty policy which is consistent with EPA’s Penalty Policy.
                                 DEQ’s penalty policy should also include specific criteria for
                                 reducing or increasing the gravity component.


UNTIMELY                         DEQ was not meeting EPA’s SV guidance and often it was not
ENFORCEMENT                      meeting its own time frames for resolution of the violations.
ACTIONS                          Violations for 224 of the 24 SVs were either not addressed or not
                                 resolved within 150 days of the SV designation. There were 18
                                 SVs that remained unaddressed for periods from 175 days to 1,636
                                 days. In order to provide adequate protection to public health and
                                 the environment, SVs need to be brought back into compliance as
                                 soon as possible. Furthermore, Idaho’s 2-year statute of limitations
                                 necessitates that enforcement actions in response to significant
                                 violations be pursued timely.

                                 The following example illustrates the need for more timely
                                 enforcement actions in response to significant violations.



4. Of the 24 SVs, one SV was resolved within the 150-day time frame specified by EPA guidance and one other
SV was less than 150 days old.



                                 SV-19, a manufacturer. This synthetic minor stationary source
                                 was designated as an SV in October 1996. In April 1997, almost 6


                                                     17                                   Report No. 8100249
                      months later, DEQ issued a warning letter to the SV for those
                      violations. Although the SV did not respond to the letter, DEQ did
                      not escalate the enforcement action. Another inspection in
                      August 1997 found that the facility was still violating its PTC. As
                      of the end of December 1997, over 3 months later, enforcement had
                      not been escalated beyond a warning letter. Therefore, the SV’s
                      violations have remained unresolved for approximately 14 months.
                      This is well beyond the 150-day time frame goal established by
                      EPA’s SV guidance.

                      A major cause for DEQ’s untimely responses to SVs was that the
                      Compliance Assurance Agreement between the Region and DEQ
                      did not require the State to follow EPA’s SV guidance. Therefore,
                      EPA had not established a requirement for DEQ to address or
                      resolve SVs within 150 days of designation as an SV.

DEQ Enforcement       Because DEQ was not required to follow EPA’s SV guidance,
Time Frames not       DEQ’s Enforcement Procedures Manual established enforcement
Consistent with EPA   time frames that significantly exceeded the SV guidance. The
Guidance              manual established a time frame of up to 120 days from the initial
                      compliance review to initiate a warning letter or NOV and up to
                      another 200 days to address the violation through a consent order
                      or referral for a civil action.

                      We also found that DEQ had a policy in effect from 1996 to mid-
                      1997 which contributed to untimely enforcement actions. During
                      this approximate 1-year period, DEQ had a policy which required
                      the inspectors in its Compliance Assurance Bureau to refer draft
                      inspection reports to its Permitting Bureau for compliance
                      determinations. When an inspection revealed potential permit
                      violations, the compliance status would be considered “pending”
                      until the Permitting Bureau determined whether, in fact, there were
                      actual permit violations. According to Compliance Assurance
                      Bureau staff, the Permitting Bureau’s compliance determinations
                      often were not necessary and slowed down the enforcement
                      process. Therefore, this policy resulted in delayed enforcement
                      actions against sources who violated permitting requirements.




CONCLUSION            The State of Idaho has not brought SVs into compliance in a timely
                      manner, resulting in increased threats to public health and the


                                       18                               Report No. 8100249
                 environment. Our review of 24 SVs showed that only 1 of the
                 violating facilities had been either addressed or resolved within the
                 150-day time frame specified by EPA guidance as of the end of
                 1997. In fact, DEQ allowed many of the SVs to continue to violate
                 permit conditions and the Rules and Regulations for the Control of
                 Air Pollution in Idaho for years without initiating enforcement
                 actions or penalties. A lack of adequate enforcement and small or
                 no penalties gave SVs a financial incentive to continue polluting
                 rather than bringing their facilities into compliance. Furthermore,
                 insufficient enforcement responses to SVs may result in DEQ’s
                 inability to pursue penalties for the violations because of Idaho’s 2-
                 year statute of limitations.

                 In its comments to our position papers DEQ stated:

                        ... Our resources have continually been assigned to
                        doing whatever is necessary to protect public health
                        and the environment according to the provisions of
                        state law.... DEQ does not necessarily agree that
                        adding staff strictly to achieve the requirements
                        within federal policy is a sound approach to the
                        perceived problems brought to light in the audit.
                        Federal policy of the type being argued herein is
                        presently being challenged by many states at the
                        national level.

                 In our opinion, DEQ’s focus on compliance assistance in lieu of
                 enforcement has not been effective in achieving and maintaining
                 compliance with Idaho’s air pollution requirements. DEQ needs to
                 implement an enforcement program that provides a deterrence and
                 eliminates any economic benefits gained from noncompliance.


RECOMMENDATION   We recommend that the Regional Administrator:

                        2-1.   Require DEQ to develop and implement
                               enforcement policies and procedures which are
                               consistent with EPA’s Compliance and
                               Enforcement Manual, Timely and Appropriate
                            Enforcement Response to Significant Violators, and
                            Clean Air Act Stationary Source Civil Penalty Policy.




                                   19                               Report No. 8100249
REGION COMMENTS   The Region concurred with the recommendation and described
AND OIG           corrective actions that it planned to take in early fiscal 1999. The
EVALUATION        Region commented that while it did not have unilateral authority to
                  require DEQ to strictly and formally adhere to EPA enforcement
                  policies and procedures, it will expect future State performance and
                  outcomes to reflect EPA policies and procedures.

                  Furthermore, the Region stated that it will take whatever actions
                  are necessary, including carrying out independent inspections and
                  assuming responsibility for enforcement actions, should the State
                  fail to secure results in line with EPA expectations.

                  We consider the proposed corrective actions to be satisfactory.




                                   20                               Report No. 8100249
                      CHAPTER 3
             INSUFFICIENT INSPECTIONS

               DEQ’s inspection activity did not provide adequate coverage to
               ensure that all SVs were identified and reported timely. DEQ did
               not inspect sources as frequently as required by EPA guidance
               which states that all major sources shall be inspected annually and
               all potential major sources shall be inspected biennially. In addition,
               reports of inspections were not prepared timely in accordance with
               DEQ’s guidance. As a result, there is increased risk that significant
               air pollution violations will not be identified and resolved within a
               reasonable period of time, which can adversely impact human health
               and the environment. These conditions occurred because the
               Region had not required DEQ to meet EPA’s Inspection Frequency
               Guidance, and DEQ’s guidance for timely finalization of inspection
               reports was not adequately communicated to DEQ inspectors.


BACKGROUND     The air quality section within DEQ’s Compliance Assurance
               Bureau is responsible for oversight of facility compliance with State
               rules and federal regulations and for enforcement of permit
               compliance. DEQ assures compliance with air quality rules and
               regulations primarily through routine inspections of facilities which
               emit or have the potential to emit air pollutants. Inspections
               provide credible evidence to determine whether a particular source
               is operating in compliance with the CAA. EPA’s Inspection
               Frequency Guidance requires periodic onsite inspections (generally
               once a year for major sources) to determine whether a source is
               complying with emission limits and whether emission control
               systems are working properly. Inspections provide an effective
               mechanism for identifying SVs.

               DEQ inspectors are located within DEQ’s central office, as well as
               within various regional offices throughout the State. Once the
               inspection has been completed, the inspector is responsible for
               writing the inspection report, which documents all visual
               observations and information obtained during the inspection. The

                                 21                                Report No. 8100249
                                    primary purpose for the written inspection report is to document
                                    the facility’s compliance with permits and/or specific environmental
                                    laws. The inspection report is used to support noncompliance
                                    determinations which may result in a recommendation for
                                    administrative, civil, or criminal enforcement action. The inspection
                                    report is usually the first step of the enforcement process; without
                                    it, enforcement cannot proceed.


INADEQUATE                          Idaho’s inspection activity did not provide adequate coverage to
INSPECTION                          ensure that all SVs were identified. Although it appears that DEQ
COVERAGE                            substantially met its annual inspection commitments to the Region,
                                    it did not commit to an adequate number of inspections based on its
                                    universe of sources and EPA’s Inspection Frequency Guidance.
                                    Not all major sources were inspected annually and not all potential
                                    major sources5 were inspected biennially.

                                    •        Of the 120 major sources as of December 1997, only 47
                                             (39 percent) were scheduled for inspection during 1997 and
                                             43 (36 percent) were inspected during that year. Only 43
                                             (36 percent) were scheduled for inspection during 1998.

                                    •        Of the 228 potential major sources as of December 1997,
                                             only 58 (25 percent) were scheduled for inspection during
                                             1997 and only 72 (32 percent) were inspected during either
                                             1996 or 1997. Only 47 (21 percent) were scheduled for
                                             inspection during 1998.

                                    According to the Inspection Frequency Guidance contained in
                                    EPA’s Compliance Monitoring Strategy, generally all major sources
                                    regulated under the CAA are to be inspected annually, and all
                                    potential major sources regulated under the CAA are to be
                                    inspected biennially.

                                    The fiscal 1993 Compliance Assurance Agreement between the
                                    Region and DEQ stipulates that in developing the annual inspection
                                    schedule, DEQ begins with the entire universe of sources and lists
                                    those which must be inspected during the coming


 5. Potential major sources are sources with potential uncontrolled emissions of a criteria pollutant or pollutants
that exceed the major source threshold. These sources have emissions that are below the major source threshold
when operating under physical or operational limitations on their emissions capacities.



                                                         22                                     Report No. 8100249
                  year. If a source is not scheduled for inspection, justification for
                 the omission shall be provided to EPA. By November 1 of each
                 year, the Region and DEQ will negotiate a final inspection
                 schedule.


INSPECTION       Reports of inspections were not prepared timely. From our sample
REPORTS NOT      of 25 inspections performed during our audit period
TIMELY           (October 1, 1996 through December 31, 1997), 15 inspection
                 reports (60 percent) were not finalized within 60 days. Of those 15
                 inspection reports, 10 were not finalized within 90 days. The
                 average number of days from the inspection to finalization of the
                 report for these 10 inspections was 205 days.

                 DEQ’s Enforcement Procedures Manual requires: (i) inspectors to
                 complete inspection reports within 45 days from either the first day
                 of inspection, or from the date requested information is received;
                 and (ii) management review and finalization to not exceed 15 days.
                 Thus the norm for finalizing reports is 60 days. In extenuating
                 circumstances, the manual provides an extension of up to 30 days.


VIOLATIONS NOT   Inspections are an important tool for DEQ to detect violations.
IDENTIFIED AND   Therefore, not inspecting sources as frequently as EPA’s guidance
RESOLVED         indicates increases the risk that significant air pollution violations
TIMELY           will not be identified and remain unresolved. Failure to complete
                 timely inspection reports can delay violation determinations and
                 associated enforcement processes. Delaying the enforcement
                 process may result in decreased opportunities for resolving the
                 violations and may increase the risk of exceeding the State’s 2-year
                 statute of limitations.

                 Our sample of inspections consisted mostly of SVs. Timely
                 inspections of SVs is especially important because enforcement
                 action cannot be taken until the inspection report is completed. The
                 following is an example where DEQ did not inspect a major source
                 annually and did not complete an inspection report timely,
                 contributing to the source’s continued noncompliance over several
                 years.

                         SV-4, a manufacturer. This major stationary source was
                         inspected on February 2, 1994, revealing that the source
                         was out of compliance with Rules and Regulations for the


                                   23                                 Report No. 8100249
                     Control of Air Pollution in Idaho because it had failed to
                     register with DEQ and pay registration fees. This source
                     also had a history of air emissions noncompliance since
                     1991.

                     DEQ sent the facility a letter on March 11, 1994 requesting
                     emission information for registration fee purposes. We
                     were unable to find any evidence at DEQ that the company
                     responded to DEQ’s request.

                     The source was not inspected again until September 4, 1997
                     and October 21, 1997. These inspections were in response
                     to a citizen’s complaint alleging the source was emitting a
                     pollutant which was accumulating on vehicles near the
                     facility. These inspections revealed a number of violations,
                     including excess opacity emissions and operating without
                     PTCs for four emission points. As a result, the source was
                     designated as an SV during October 1997.

                     The September and October inspection reports were not
                     finalized until January 1998, or over 80 days
                     (October 21, 1997 to January 13, 1998) after the last
                     inspection. This contributed directly to the delay in an
                     enforcement action until February 1998.


DEQ NOT       Inadequate inspection coverage of air pollution sources in the State
REQUIRED TO   occurred because the Region had not required DEQ to meet EPA’s
MEET EPA’S    Inspection Frequency Guidance. During fiscal 1992, DEQ
INSPECTION    developed a modified inspection list because of a reduction in
GUIDANCE      inspection resources (DEQ had only three inspectors), and the
              Region approved this strategy in August 1992. Although DEQ has
              subsequently increased its inspection resources, the Region has not
              reevaluated DEQ’s inspection commitments since 1992. This is
              because the Region has not performed any air program reviews at
              the State since fiscal 1993.

              Additionally, DEQ did not believe that it was always necessary or
              efficient to inspect each major source annually and each potential
              major source biennially. For example, DEQ noted that there were
              some sources which were always in compliance. DEQ’s approach
              to determining facilities for inspection was to ask each of its six
              regional offices to come up with about 15 (major, potential major,


                               24                               Report No. 8100249
                  and minor) sources for inspection each year. The inspectors were
                  to consider factors such as compliance status and history, facility
                  size, and citizen complaints. This list was compiled and submitted
                  as the inspection schedule to the Region every year for approval.
                  This process did not ensure that all significant air pollution
                  violations were identified. Only 36 percent of major sources were
                  inspected during 1997 and 32 percent of potential major sources
                  were inspected during 1996 or 1997. Using only 15 sources for
                  each region as a baseline number for planning purposes was not
                  sufficient, based on Idaho’s universe of sources and EPA’s
                  Inspection Frequency Guidance.


GUIDANCE          Regarding timely finalization of inspection reports, DEQ staff
RECENTLY          advised that the criteria stipulated in DEQ’s Enforcement
FINALIZED         Procedures Manual was not finalized and communicated to DEQ
                  inspectors until January 29, 1998. However, in its response to our
                  position papers, DEQ stated that this criteria was made available to
                  DEQ inspectors in draft form nearly 8 months prior to its
                  finalization. DEQ further stated that its files include a 1991 policy
                  memo regarding inspection report timeliness. In our opinion, this
                  timeliness criteria apparently was not adequately communicated to
                  staff and DEQ had not implemented adequate procedures to ensure
                  that these policies were consistently followed.


RECOMMENDATIONS   We recommend that the Regional Administrator:

                         3-1.    Assess the level of inspection resources available to
                                 DEQ and negotiate with DEQ to inspect major and
                                 potential major sources in accordance with EPA’s
                                 Inspection Frequency Guidance. In the event it is
                                 determined that DEQ cannot meet EPA’s guidance,
                                 the Region should assess DEQ’s criteria for
                                 selecting sources for inspection, including
                                 determining that the criteria does, in fact, result in
                                 the most high risk (for noncompliance) sources
                                 being inspected annually.

                         3-2.    Supplement DEQ’s inspection resources with
                                 regional staff if DEQ is unable to meet EPA’s
                                 Inspection Frequency Guidance.



                                    25                               Report No. 8100249
                         3-3.   Ensure that DEQ implements adequate procedures
                                to ensure timely finalization of inspection reports.




REGION COMMENTS   The Region concurred with the recommendations and stated that it
AND OIG           planned to implement corrective actions during the fall of 1998.
EVALUATION        We consider the proposed corrective actions to be satisfactory.




                                  26                                Report No. 8100249
                      CHAPTER 4
       REVIEWS OF SOURCE EMISSIONS REPORTS
                 WERE NOT TIMELY

               DEQ did not review source emissions reports timely, resulting in a
               significant backlog of emissions reports that were pending review.
               These reports are required by permits and consent orders, and
               provide important emissions information that should be reviewed
               timely to determine source compliance with applicable emission
               limits. A lack of review can lead to violations going undetected for
               long periods of time and enforcement action not being taken timely.
               This condition occurred because DEQ did not provide sufficient
               resources for review of emissions reports needed to eliminate this
               backlog.


BACKGROUND     In addition to performing routine inspections of facilities, DEQ also
               identifies violations through review of self-monitoring emissions
               reports required by permits and consent orders. Source and
               emissions testing is a compliance assurance activity which directly
               measures emissions from a source. Two methods are stack tests
               and continuous emissions monitoring systems (CEMS). DEQ staff
               review test protocols and test reports, confer with facilities
               concerning test conditions and procedures, witness tests, validate
               emission monitoring data from stack test and CEMS reports, and
               ultimately use this data to determine source compliance with
               applicable emission limits. Violations discovered through these
               compliance reviews can result in a recommendation for initiation of
               an enforcement action against the violating facility.


BACKLOG OF     DEQ had a significant backlog of unreviewed stack test and CEMS
EMISSIONS      reports for both major and minor sources. Of the total backlog,
REPORTS        about 42 percent were for major sources. As of April 1998:

               •      Ninety seven stack test reports out of 142 reports received
                      (68 percent) had not been reviewed. Of the backlogged

                                 27                               Report No. 8100249
                                            reports, 33 (34 percent) were received from 2 to 6 years
                                            ago.

                                   •        Eighteen CEMS reports out of 19 (95 percent) had not been
                                            reviewed. Of the backlogged reports, 8 (44 percent) were
                                            received over 2 years ago.

Reports Required by                Stack tests and CEMS reports provide emissions information that
Permits and Consent                are essential parts of a compliance assurance program, and should
Orders                             be reviewed timely. A stack test consists of sampling a source’s
                                   stacks to determine average levels of air pollutants. With CEMS,
                                   instruments continuously measure the level of pollutants in the
                                   exhaust gas. DEQ should validate emission monitoring data from
                                   stack tests and CEMS reports, and use this data to determine
                                   source compliance with applicable emission limits.

                                   DEQ establishes stack test and CEMS requirements in PTCs,
                                   consent orders, or operating permits6, in accordance with Rules and
                                   Regulations for the Control of Air Pollution in Idaho.

Violations Go                      DEQ cannot determine source compliance with applicable emission
Undetected                         limits when stack test and CEMS reports are not reviewed. This
                                   lack of review can lead to violations going undetected for long
                                   periods of time and enforcement action not being taken timely. A
                                   number of the reports that had not been reviewed were for facilities
                                   with a history of noncompliance and which are currently on the SV
                                   list.

                                   The following are examples where DEQ did not review timely stack
                                   test reports which either identified significant emission limit
                                   violations or were from facilities that had a history of violations:

                                   •        A processing plant7. This stationary source had PTCs
                                            requiring stack tests for Ethylene Oxide (EO). The
                                            company performed a stack test on April 29, 1997 and DEQ
                                            received the test results on July 31, 1997. DEQ did not
                                            review the report until December 1997. The stack test
                                            results revealed that the source: (i) failed to submit the test
                                            report within 30 days of conducting the stack test;
                                            (ii) significantly exceeded the average hourly EO emission

6. DEQ has issued operating permits to some synthetic minor sources.

 7. Although this source was designated as an SV on EPA’s SV list, the facility was not included in EXHIBIT 2
because our evaluation of DEQ’s documentation identified that the facility was a minor source, and as a result, did
                                                        28                                    Report No. 8100249
not meet EPA’s SV definition. The serious violations by this minor source, however, illustrate a need for timely
reviews of reports from minor as well as major sources.


                                            rate limit during the test; and (iii) exceeded the pounds of
                                            EO per batch process input limit during the test.
                                             Specifically, the PTC allowed an hourly EO emission rate
                                            of 0.021 lb/hr, and the recorded value in the test report was
                                            0.49 lb/hr (over 22 times higher than the permitted limit).

                                            DEQ’s review of the stack test in December 1997 was
                                            precipitated by a citizen’s complaint regarding particulate
                                            matter settling on nearby homes, yards, and cars. Also in
                                            December, a notice of intent to bring a civil suit against the
                                            company was filed by a community located across a road
                                            from the facility for violations related to this stack test, as
                                            well as for other violations. The notice alleged that the
                                            source’s emission levels were outside the range of
                                            acceptable risk, and that the residents and owners in the
                                            community had endured property damage and health
                                            problems related to the company’s actions. The community
                                            has also filed a notice of intent to bring a civil suit against
                                            DEQ for failing to take enforcement action against the
                                            source for the alleged violations.

                                   •        SV-13, a rock crushing operation. This stationary source
                                            had significant “fugitive” emissions violations that were
                                            discovered during inspections performed in 1994, 1995, and
                                            1996. The opacity ranged from 30 to 60 percent at a
                                            number of different emission points, constituting violations
                                            of both Idaho’s Rules and Regulations for the Control of
                                            Air Pollution in Idaho and the source’s PTC. The SV
                                            conducted two source tests and submitted the results to
                                            DEQ in January 1997. Although this source had a
                                            significant history of noncompliance and had been on the
                                            SV list since August 1995, as of April 1998 DEQ still had
                                            not formally reviewed these source tests to determine
                                            compliance with emission limits.

Insufficient                       The significant backlog of unreviewed emissions reports occurred
Resources for                      because DEQ did not provide sufficient resources for review of
Review of Emissions                emissions reports. During our audit period (October 1, 1996
Reports                            through December 31, 1997) only one full-time position was
                                   provided for reviews of stack test and CEMS data and reports,
                                   approvals of test protocols, and test observations to determine
                                                     29                                Report No. 8100249
                  compliance with applicable emission limits. In its response to our
                  position papers, DEQ stated that it has received legislative approval
                  to add an additional full-time position to assist with this workload.




RECOMMENDATION    We recommend that the Regional Administrator:

                         4-1.    Ensure that DEQ performs its reviews of stack test
                                 and CEMS reports timely.


REGION COMMENTS   The Region concurred with the recommendation and stated that it
AND OIG           will make the objective of the recommendation a priority during the
EVALUATION        renegotiation of the Compliance Assurance Agreement in early
                  fiscal 1999. We consider the proposed corrective action to be
                  satisfactory.




                                   30                                Report No. 8100249
                       CHAPTER 5
        SIGNIFICANT VIOLATOR LIST INACCURATE



                The Region did not ensure that data reported on the SV lists for the
                State were accurate and complete. A review of 37 sources
                reported on SV lists for DEQ disclosed inaccurate data for half of
                those sources. EPA uses the SV list as an oversight tool to ensure
                that SVs are addressed and resolved timely and appropriately.
                EPA’s SV guidance provides definitions of an SV and criteria for
                the various action dates reported on the SV list. Inaccurate SV
                reporting hinders the Region’s ability to monitor the timeliness and
                appropriateness of enforcement actions and resolution of SVs. This
                condition occurred because the Region did not establish adequate
                procedures to ensure that the data reported on the SV lists
                conformed to the reporting criteria specified by EPA’s SV
                guidance.


BACKGROUND      EPA reports and tracks SVs in its national database known as the
                Aerometric Information Retrieval System Facility Subsystem
                (AFS). AFS is used to track emissions and compliance data from
                air pollution sources. Based on monthly SV conference calls with
                DEQ air compliance management and staff, the Region inputs
                information regarding SVs into AFS. The Region uses the resulting
                SV lists as an oversight tool to monitor the SVs to ensure that
                enforcement actions taken by DEQ are appropriate and result in
                timely resolution of SVs.


DATA NOT        The SV lists during our audit period (October 1, 1996 through
ACCURATE OR     December 31, 1997) were not accurate and complete. A review of
COMPLETE        37 sources reported on the SV lists disclosed that data for 20
                (54 percent) was not reported accurately. The lists included 24
                errors in the data reported for these 20 sources.


                                 31                               Report No. 8100249
                      •      Three sources were reported on the SV lists with violations
                             that did not meet EPA’s SV definition;

                      •      Nine sources were erroneously reported on the SV lists as
                             addressed and/or resolved when they had not been
                             addressed and/or resolved;

                      •      Seven sources were reported on the SV lists with erroneous
                             “SV Day 0"8 dates;

                      •      Two sources were inappropriately dropped from the SV
                             lists without being resolved;

                      •      Two sources had an additional SV that was not reported;
                             and

                      •      One source was not reported as resolved when, in fact, it
                             was resolved.

Important Oversight   EPA reports and tracks SVs to assist in ensuring that the violations
Tool                  are addressed and resolved timely and appropriately. EPA’s SV
                      guidance provides the definition of an SV and also provides criteria
                      for the dates reported on the SV list: (i) SV Day 0; (ii) addressed
                      date; and (iii) resolved date. This guidance defines an SV as any
                      “major” (as defined by the Clean Air Act) stationary source of air
                      pollution which is violating a federally enforceable regulation.
                      States are required to report SVs to EPA within 1 month of
                      discovery of the violation (SV Day 0). An SV is appropriately
                      addressed when: (i) a legally enforceable and expeditious
                      administrative or judicial order is issued; or (ii) the violation is
                      subject to a referral to the State attorney general or Federal
                      Department of Justice. An SV is resolved when the source is
                      returned to compliance.

No Assurance of       The Region and DEQ cannot effectively use SV lists to monitor the
Timely and            timeliness and appropriateness of enforcement actions and
Appropriate           resolution of SVs because the data is inaccurate. Consequently, the
Enforcement           Region cannot be assured that all SVs are addressed and resolved
                      timely and appropriately.

                      The Region had insufficient procedures to ensure the accuracy and
                      completeness of the SV list. The Region retains the ultimate



                                       32                               Report No. 8100249
 8. SV day zero represents the date the source is designated as an SV. Day zero starts the clock for measuring the
timeliness of enforcement activities. Generally, the day zero starts no later than 30 days after the discovering
agency first receives information concerning the violation.

                                    responsibility for determining whether a violator is an SV and for
                                   updating the SV list based on monthly calls between the Region and
                                   DEQ. The Region had not established adequate procedures to
                                   ensure that: (i) violations added to the SV list met EPA’s SV
                                   definition; (ii) staff from both DEQ and the Region were aware of
                                   and consistently used EPA’s SV definition and criteria for the SV
                                   Day 0, addressed, and resolved dates; and (iii) SVs are deleted from
                                   the SV list only for appropriate reasons. Furthermore, DEQ in its
                                   response to our position papers stated that it was not aware of
                                   updated EPA SV guidance and had therefore not incorporated this
                                   guidance into its current method of designating SVs.


RECOMMENDATIONS                    We recommend that the Regional Administrator implement
                                   procedures to ensure that:

                                            5-1.     Violations on the SV list meet EPA’s SV definition.

                                            5-2.     Staff from both DEQ and the Region are aware of,
                                                     and consistently use, EPA’s SV definition and
                                                     criteria for the SV Day 0, addressed, and resolved
                                                     dates.

                                            5-3.     SVs are deleted from the SV list for appropriate
                                                     reasons.


REGION COMMENTS                    The Region concurred with the recommendations and described
AND OIG                            corrective actions that it is in the process of implementing. We
EVALUATION                         consider the proposed corrective actions to be satisfactory.




                                                        33                                    Report No. 8100249
[This page was intentionally left blank]




                  34                       Report No. 8100249
               CHAPTER 6
INSUFFICIENT OVERSIGHT BY THE REGION

        The Region did not perform sufficient oversight of the State’s air
        enforcement program to ensure compliance with federal laws and
        regulations, and to prevent threats to public health and the
        environment. Specifically, the Region did not:

        •       Establish criteria for assessing the State’s enforcement
                program.

        •       Perform any program reviews of DEQ’s air enforcement
                program after April 1993.

        •       Use its enforcement authority effectively when the State
                was either unable or unwilling to pursue timely and
                appropriate enforcement action in response to violations.

        •       Report the weaknesses in the State’s enforcement program
                as management control deficiencies to the EPA
                Administrator as required by the Federal Managers’
                Financial Integrity Act (FMFIA).

        The Region attributed the conditions to three main causes: (i) a
        loss of positions and experienced staff because of two recent
        reorganizations; (ii) difficulty in determining the level of oversight
        to provide because the states have requested more autonomy and
        flexibility under performance partnership agreements; and (iii) a
        lack of clear criteria defining oversight under performance
        partnership agreements.

        This lack of regional oversight contributed to the State’s ineffective
        enforcement program which did not meet CAA requirements.
        Under the State’s enforcement program, SVs were allowed to
        remain out of compliance for unreasonable periods of time and
        were not assessed financial penalties or denied economic benefits of
        noncompliance.




                          35                                 Report No. 8100249
             EPA’s Revised Policy Framework for State/EPA Enforcement
BACKGROUND   Agreements (1986) provides that while delegated states have
             primary responsibility for compliance and enforcement actions,
             EPA retains responsibility for ensuring fair and effective
             enforcement of federal requirements, and a credible national
             deterrence to noncompliance. The policy provides guidance for
             negotiating and implementing enforcement agreements with the
             states. The agreements are to include clear oversight criteria for
             EPA to assess State compliance and enforcement program
             performance. The policy also addresses how EPA should conduct
             its oversight function to achieve the goal of building and improving
             the State compliance and enforcement program and overall national
             performance. Oversight procedures such as mid-year reviews,
             periodic audits, and oversight inspections should be used.

             The fiscal 1993 Compliance Assurance Agreement for Air between
             the Region and DEQ defines the respective roles and
             responsibilities of EPA and DEQ for the stationary source air
             pollution control program. The agreement requires DEQ to
             address all violations of the Idaho Environmental Protection Health
             Act and Rules and Regulations for the Control of Air Pollution in
             Idaho, but does not require DEQ to follow EPA enforcement
             guidance. The agreement also states that the Region and DEQ will
             review the document annually, identify provisions requiring change,
             and commit to negotiating new terms. The agreement has not been
             updated since fiscal 1993.

             EPA’s SV guidance states the CAA vests responsibility for
             enforcement of the law with EPA. The SV guidance also states
             that EPA shall assume the enforcement lead when it becomes
             apparent that the State is unable or unwilling to act in accordance
             with the guidance to resolve a violation in a timely and appropriate
             manner. The SV guidance requires states to address or resolve an
             SV within 150 days of the SV designation. An SV is considered
             addressed when the violator is on a legally enforceable
             administrative or judicial order or subject to a referral to the State
             attorney general for an adjudicatory enforcement action or judicial
             hearing. An SV is considered resolved when the facility is returned
             to compliance. The guidance provides EPA up to 100 additional
             days to address an SV after it assumes the lead from a State.

             EPA’s Penalty Policy requires penalty calculations to include
             economic benefit and gravity components to establish a deterrence.
             The Penalty Policy also establishes criteria for mitigating and

                               36                                Report No. 8100249
               aggravating the gravity component in order to promote flexibility
               while maintaining national consistency. The Penalty Policy states
               that it is essential that each case file contain a complete description
               of how the preliminary penalty was developed as well as the facts
               and reasons for adjustments made to the preliminary deterrence
               amount.

               The FMFIA requires the Regional Administrator to annually make a
               systemic assessment of regional management controls that protect
               programs and resources from fraud, waste, and mismanagement,
               and help control programs to achieve intended outcomes. After the
               assessment is made, the Regional Administrator is required to
               provide personal assurance that management controls are
               reasonable to ensure protection of programs, operations, and
               functions and to notify the EPA Administrator of any deficiencies in
               management controls.


ENFORCEMENT    The Region did not establish specific enforcement criteria for
CRITERIA NOT   assessing the State’s air enforcement program. The most recent
ESTABLISHED    Compliance Assurance Agreement between the Region and DEQ
               defines the respective roles and responsibilities of EPA and DEQ
               for the stationary source air pollution control program. However,
               the agreement does not require DEQ to follow EPA’s Compliance
               and Enforcement Manual, SV guidance, and Penalty Policy.
               Instead, the agreement states:

                       It is recognized by EPA that DEQ currently does
                       not have sufficient resources to consistently process
                       cases in accordance with EPA Timely and
                       Appropriate Guidance. DEQ’s goal is to build an
                       adequate and balanced compliance program which
                       will result in enforcement processing consistent with
                       the Timely and Appropriate guidelines.

               Due to the absence of established enforcement criteria in the
               agreement, the Region was not able to evaluate DEQ’s progress
               toward its stated goal of establishing an adequate enforcement
               program.


PROGRAM        The Region did not perform any program reviews of DEQ’s air
REVIEWS NOT    enforcement program after April 1993. During fiscal 1993, the
PERFORMED      Region conducted a review of DEQ’s air compliance and permitting
                                 37                                 Report No. 8100249
                                 programs and identified a number of areas needing improvement.
                                 The areas needing improvement included: (i) timeliness of
                                 enforcement actions; (ii) followup of non-responses to warning
                                 letters; (iii) frequency and sufficiency of penalty assessments; and
                                 (iv) completeness of compliance inspections and reports. Although
                                 the Region provided DEQ with recommendations to correct the
                                 weaknesses, the Region had not conducted any followup reviews
                                 during the subsequent 5 years.

                                 In responding to the announcement of our audit, the Regional
                                 Administrator advised:

                                          Because Region 10 has not conducted an audit or
                                          assessment of IDEQ’s Air Program subsequent to
                                          the FY 1993 agreement, we don’t have adequate
                                          information to determine IDEQ’s ability to
                                          consistently meet the timely and appropriate
                                          guidance or its progress in that regard.


REGIONAL                         The Region did not use its enforcement authority effectively when
ENFORCEMENT                      the State was either unable or unwilling to take timely and
AUTHORITY NOT                    appropriate enforcement actions. The Region assumed the
USED                             enforcement lead for only 10 SVs, even though DEQ reported
EFFECTIVELY                      another 42 that had not been addressed for an average of 1 year.

                                 Also, the Region did not address or resolve 8 of the 99 SVs that it
                                 assumed responsibility for within the100-day time frame specified in
                                 EPA guidance. Examples of SV’s not addressed or resolved
                                 timely include:

                                 •        SV 25 and 34. These two SVs were not addressed or
                                          resolved by the Region even though it had the enforcement
                                          lead for 3 years and the violations were over 3 years old.



9. While the Region assumed the enforcement lead for 10 SVs, one was on hold pending completion of a criminal
investigation.




                                                     38                                  Report No. 8100249
                •      SV-33. The Region took 9 months to address the SV even
                       though the facility had a history of non-compliance dating
                       back to 1991.

                •      SV-28 through SV-32. It took the Region between 3 and
                       29 months after assuming the enforcement lead to refer the
                       cases to the EPA’s Headquarters Office of Enforcement and
                       Compliance and Assurance (OECA). These five SVs had
                       not been addressed by EPA as of the end of 1997.

                In addition, the Region did not sufficiently document its
                justifications for mitigating penalties for the one SV (SV-26) that
                was resolved during the 15-month period ended December 1997.
                Consequently, we were unable to determine whether the Region’s
                actions were consistent with EPA’s Clean Air Act Stationary
                Source Civil Penalty Policy. The SV was resolved in February
                1997 through an administrative complaint and consent order. The
                administrative complaint proposed $206,480 in penalties.
                However, the penalties were subsequently reduced to $39,000
                through the dispute resolution process.

                EXHIBIT 3 summarizes our evaluation of the 10 SVs.




FAILURE TO      For fiscal 1997, the Regional Administrator did not report the
REPORT          Region’s lack of oversight and DEQ’s ineffective administration of
DEFICIENCY IN   the air enforcement program as a management control deficiency in
MANAGEMENT      the Region’s annual FMFIA assurance letter to the EPA
CONTROLS        Administrator. In our opinion, these weaknesses are material
                deficiencies which should be reported in the Region’s next annual
                FMFIA assurance letter.


REGION          In discussing the weaknesses in oversight with managers in the
ACKNOWLEDGES    Region’s Office of Air Quality, they acknowledged that additional
ADDITIONAL      oversight was needed over Idaho’s enforcement program. They
OVERSIGHT       also stated that the office has provided some oversight over Idaho’s
NEEDED          program through monthly SV conference calls with DEQ air
                compliance management and staff. They cited three causes for the
                lack of additional oversight:




                                 39                               Report No. 8100249
               •      Two reorganizations within the office during the last 2 years
                      resulted in the loss of some positions and senior staff
                      expertise in the Region’s air program.

               •      Performance partnership agreement negotiations with the
                      states have made it difficult for the Office of Air Quality, as
                      well as the other media programs within the Region, to
                      determine the level of oversight to provide. This is because
                      the states have requested more flexibility and autonomy
                      over their programs under the performance partnership
                      agreements.

               •      EPA has not established clear criteria on what oversight
                      should consist of under performance partnership
                      agreements.


COMPLIANCE     The Office of Air Quality has recognized the need to revise
ASSURANCE      Compliance Assurance Agreements for all four states in the region.
AGREEMENT TO   In response to our position papers, the Region stated:
BE REVISED
                      In retrospect, we believe the Compliance Assurance
                      Agreement (CAA) has turned out not to be
                      particularly effective in terms of achieving federal
                      enforcement objectives, and we intend to negotiate a
                      new CAA which will bring about much more
                      consistency with EPA guidance.

               The Office of Air Quality recently completed a revised agreement
               with the State of Washington and is now working on revising the
               State of Oregon’s agreement. After the Oregon agreement is
               revised, the office plans to work on revisions to Idaho’s agreement.
               According to the Office of Air Quality, the negotiations on
               revisions to State Compliance Assurance Agreements are extremely
               time consuming. The manager responsible for revising
               Washington’s agreement stated that it took about a year to
               complete the agreement.

               We agree that the Compliance Assurance Agreement with Idaho
               needs to be revised. In order to ensure that an effective air
               enforcement program is implemented in Idaho, the Region’s
               revisions to the Compliance Assurance Agreement need to include
               specific criteria for evaluating the State’s program. This criteria


                                40                                 Report No. 8100249
                should include EPA’s Compliance and Enforcement Manual, SV
                guidance, and Penalty Policy.




PROGRAM         The Region agreed that periodic program reviews are needed as
EVALUATIONS     part of its oversight responsibilities and is currently planning the
UNDER           scope and methodology for future program reviews. Office of Air
DEVELOPMENT     Quality managers stated that regional management has recognized
                the need to conduct reviews of the States’ enforcement programs
                for all media. As a result, both the Office of Air Quality and the
                Region’s Office of Enforcement and Compliance have been
                developing detailed evaluation programs that will be used to review
                the States’ enforcement programs. In comments to our position
                papers, the Region stated:

                       ... we have been actively working with the state
                       through monthly compliance status calls to improve
                       program performance. We have long recognized the
                       need to improve our oversight of state enforcement
                       programs....To address the kind of problem you
                       have identified in Idaho, some months ago, we and
                       the states undertook an effort to develop a
                       framework for evaluating states’ compliance and
                       enforcement programs. In accordance with that
                       framework, we will undertake a number of program
                       reviews in the months ahead. With regard to the
                       Idaho air program, we have begun an enforcement
                       initiative to take immediate corrective action.

                The Region’s implementation of its framework and enforcement
                initiative should improve its oversight over Idaho’s air enforcement
                program. In our opinion, the Region should evaluate Idaho’s air
                program at least annually.


REASONS         The Office of Air Quality managers explained that staff turnover as
ENFORCEMENT     well as insufficient staffing for enforcement prevented the Region
AUTHORITY NOT   from assuming the lead on additional SVs. The staff turnover and
USED            staffing limitations also prevented the Office of Air Quality from
EFFECTIVELY     addressing in a more timely manner EPA lead SVs that were
                assumed from Idaho. They also explained that OECA had not been
                able to address the five SVs that had been referred by the Region
                because of a shortage in technical and legal staff. However,
                                 41                               Report No. 8100249
             according to the managers, OECA recently obtained additional
             resources and is now working on the cases.

             According to Office of Regional Counsel Staff, the justification for
             the reduction in proposed penalties from $206,480 to $39,000 was
             not sufficiently documented because of an oversight error.

             The Region’s comments about staffing constraints limiting its ability
             to effectively take the enforcement lead for all SVs where Idaho
             was either unwilling or unable to take sufficient enforcement
             actions are noted. However, SVs represent violators which EPA
             believes are environmentally most important. Therefore, the
             Region needs to develop and implement a plan to ensure that EPA
             enforcement actions taken in response to SVs are consistent with
             EPA enforcement guidance.


CONCLUSION   The lack of regional oversight of the State’s stationary air
             enforcement program and lack of effective use of its own
             enforcement authority against SVs in the State has allowed SVs to
             remain out of compliance for unreasonable periods of time. Such
             noncompliance contributes to increased risks to public health and
             the environment. In addition, SVs have not received financial
             penalties or been denied the economic benefits of noncompliance.

             As discussed in the other chapters of this report, DEQ’s:
             (i) enforcement actions were not appropriate and penalties were not
             of sufficient magnitude to have a credible deterrent effect on major
             air pollution sources; (ii) enforcement activities did not result in
             timely return of sources to compliance; (iii) inspection procedures
             did not ensure that all significant air pollution violations were
             identified; (iv) emissions reports were not reviewed timely to ensure
             that sources were in compliance with applicable emissions limits;
             and (v) SV data was not reported accurately.

             Title V of the CAA and implementing regulations (40 CFR Part 70)
             provide authority for states to operate a permit program for
             stationary air sources that meet certain federal criteria. The
             purpose of the operating permits program is to improve
             enforcement by issuing each major source (as defined by the Act) a
             permit that consolidates all CAA requirements into a federally
             enforceable document.



                              42                               Report No. 8100249
                  40 CFR Part 70 outlines the minimum requirements that states must
                  meet in their Title V operating permit programs. The regulations
                  define the minimum elements required by the Act for State
                  operating permits programs and corresponding standards and
                  procedures by which the EPA Administrator will approve, oversee,
                  and withdraw approval of the State programs. State programs that
                  “substantially” meet regulatory requirements may be granted
                  interim approval for up to 2 years. EPA granted an interim
                  approval of Idaho’s program in January 1997. The approval
                  expires in January 1999. In order to obtain final approval, Idaho
                  must correct deficiencies in its program and submit the corrections
                  to EPA at least 6 months prior to expiration of the interim
                  approval.

                  According to 40 CFR Part 70, EPA may withdraw approval of a
                  State’s Title V Program in whole or in part whenever the program
                  no longer is in compliance with the requirements of Title V and the
                  State fails to take corrective action. Criteria for withdrawal of the
                  program include: (i) failure to act on violations of permits or other
                  program requirements; (ii) failure to seek adequate enforcement
                  penalties and fines and collect all assessed penalties and fines; and
                  (iii) failure to inspect and monitor activities subject to regulation.

                  In our opinion, the significant weaknesses in the State’s air
                  enforcement program show that it has not implemented an
                  enforcement program that meets the requirements of Title V of the
                  Clean Air Act. Therefore, the Regional Administrator should
                  withhold final approval of the State’s Title V Program if the State is
                  unable to correct the weaknesses by December 1998.
                  Furthermore, if the State is unable to implement an enforcement
                  program that is consistent with EPA guidance and the Clean Air
                  Act, the Regional Administrator needs to assume responsibility for
                  enforcement of the stationary source air program in the State.


RECOMMENDATIONS   We recommend that the Regional Administrator:

                         6-1.    Revise the Compliance Assurance Agreement with
                                 DEQ to include EPA enforcement guidance as
                                 criteria for assessment of the State’s stationary air
                                 enforcement program.




                                    43                               Report No. 8100249
                         6-2.    Conduct, at least annually, evaluations of the State’s
                                 air enforcement program for SVs for consistency
                                 with EPA guidance.

                         6-3.    Develop and implement a plan to ensure that EPA
                                 enforcement actions taken in response to SVs are
                                 consistent with EPA enforcement guidance. Also,
                                 ensure that justifications for mitigated penalties meet
                                 EPA Penalty Policy criteria and are adequately
                                 documented.

                         6-4.    Report the weaknesses in the State’s stationary air
                                 enforcement program for SVs as a management
                                 control deficiency in the next annual FMFIA
                                 assurance letter to the EPA Administrator.

                         6-5.    Withhold final approval of the State’s Title V
                                 program until the State establishes policies and
                                 procedures for enforcement which are consistent
                                 with EPA’s enforcement guidance. Specifically, the
                                 Region should assess Idaho’s Title V program
                                 against the criteria for an approvable program under
                                 40 CFR Part 70.

                         6-6.    Assume responsibility for enforcement of the
                                 stationary source air enforcement program in the
                                 State for major and synthetic minor sources if the
                                 State is unable to implement an enforcement
                                 program that is consistent with EPA guidance and
                                 the CAA.


REGION COMMENTS   The Region concurred with the recommendations and described
AND OIG           corrective actions that it planned to take during fiscal 1999. We
EVALUATION        consider the proposed corrective actions to be satisfactory.




                                       44                            Report No. 8100249
               EXHIBIT1




45   Report No. 8100249
[This page was intentionally left blank]




                  46                       Report No. 8100249
                                                                                     EXHIBIT 2

                            IDAHO DEQ
           LIST OF 24 SIGNIFICANT VIOLATORS AUDITED
                       COMPLIANCE         DATE OF
          DATE OF SV    STATUS AT        PROPOSED   PENALTY       DATE OF    AMOUNT
SOURCE   DESIGNATION       12/97         PENALTY    AMOUNT       PENALTY      PAID            NOTES2
                                                                 PAYMENT

SV-1        07/96       Unaddressed1                $       0                $           0     NE

SV-2        08/96       Unaddressed        06/97    $   44,700               $           0     IP, 3

SV-3        08/96       Unaddressed        06/97    $   44,700               $           0     IP, 3

SV-4        10/97       Unaddressed                 $       0                $           0     NE

SV-5        11/94       Unaddressed                 $       0                $           0     NE

SV-6        07/97       Unaddressed                 $       0                $           0     ENE

SV-7        09/96      Resolved 04/97      01/97    $   10,000     04/97     $         250      IP

SV-8        05/96       Unaddressed                 $       0                $           0     ENE

SV-9        01/95      Resolved 10/97               $       0                $           0     EA

SV-10       12/94      Resolved 12/96               $       0                $           0     ENE

SV-11       07/96       Unaddressed        08/96    $    4,500                   $
                        Unaddressed        03/97           500                           0
                        Unaddressed        06/97         1,500                           0     ENE
                                                                                         0

SV-12       11/94       Unaddressed        05/96    $   24,000     04/97     $       24,000   ENE, 4

SV-13       08/95       Unaddressed                 $       0                $           0     ENE

SV-14       09/96       Unaddressed                 $       0                $           0     NE

SV-15       07/96       Unaddressed                 $       0                $           0     ENE

SV-16       10/97      Resolved 10/97               $       0                $           0     EA

SV-17       06/96       Unaddressed                 $       0                $           0     ENE

SV-18       07/96       Unaddressed                 $       0                $           0     ENE

SV-19       10/96       Unaddressed                 $       0                $           0     EU

SV-20       07/95      Addressed 11/96              $       0                $           0     ENE

SV-21       10/95       Unaddressed                 $       0                $           0     ENE

SV-22       11/94       Unaddressed                 $       0                $           0     ENE

                                            47                         Report No. 8100249
                                                                                                          EXHIBIT 2

                                 IDAHO DEQ
                LIST OF 24 SIGNIFICANT VIOLATORS AUDITED
                                COMPLIANCE           DATE OF
             DATE OF SV          STATUS AT          PROPOSED         PENALTY        DATE OF        AMOUNT
SOURCE      DESIGNATION             12/97           PENALTY          AMOUNT        PENALTY          PAID         NOTES2
                                                                                   PAYMENT

SV-23             05/97           Unaddressed                         $                               $
                  06/97          Resolved 06/97                                0                             0     ENE
                                                                               0                             0

SV-24             09/96           Unaddressed                        $         0                  $          0      NE


Notes

1.      Unaddressed means that an enforcement action imposing a compliance schedule or requiring immediate
        compliance has not been taken.

2.      “NE” indicates no enforcement action initiated, “IP” indicates insufficient penalty was assessed, “ENE” indicates
        enforcement action was not escalated, “EU” indicates enforcement action was untimely, and “EA” indicates
        enforcement activities were appropriate during 15-month period.

3.      The proposed penalty was in the process of being reduced to below $15,000.

4.      Company also paid $80,000 to a city for a supplemental environmental project. However, violations that occurred
        during 1997 were unaddressed by DEQ.




                                                          48                               Report No. 8100249
                                                                                                       EXHIBIT 3

                              EPA REGION 10
                LIST OF 10 SIGNIFICANT VIOLATORS AUDITED
                                   DATE            DATE          COMPLIANCE
             DATE OF SV          ASSUMED         REFERRED         STATUS AT         PENALTY        AMOUNT
SOURCE      DESIGNATION         BY REGION         TO OECA            12/97          AMOUNT          PAID         NOTES1

SV-25             06/93             01/95            N/A           Unaddressed      $          0   $         0      EU

SV-26             06/94             01/95            N/A         Resolved 02/97     $ 206,480      $   39,000       DI

SV-27             06/93             01/97            N/A             On Hold        $          0   $         0    AA, 2

SV-28             08/94             01/95           06/97          Unaddressed      $          0   $         0      EU

SV-29             11/94             02/97           06/97          Unaddressed      $          0   $         0      EU

SV-30             09/95             02/97           06/97          Unaddressed      $          0   $         0      EU

SV-31             09/96             03/97           06/97          Unaddressed      $          0   $         0      EU

SV-32             09/96             03/97           06/97          Unaddressed      $          0   $         0      EU

SV-33             12/96             12/96            N/A         Addressed 09/97    $2,395,000     $         0      EU

SV-34             07/94             12/94            N/A           Unaddressed      $          0   $         0      EU


Notes

1.      “EU” indicates enforcement action was untimely, and “DI” indicates documentation supporting the justifications
        for the reduction in penalties was incomplete, and “AA” indicates appropriate action was taken.

2.      Enforcement actions in response to the SV were on hold until completion of a criminal investigation involving the
        facility.




                                                            49                             Report No. 8100249
[This page was intentionally left blank]




                  50                       Report No. 8100249
                                         APPENDIX A
                        AUDIT SCOPE AND METHODOLOGY


This section describes the audit scope and methodology, including sample selection for our review of
enforcement activities and inspection procedures.

We performed our audit in accordance with Government Auditing Standards issued by the Comptroller
General of the United States. Audit fieldwork was performed between December 1997 and July 1998.
The audit covered the DEQ’s and the Region's management controls in effect for the period from October
1996 through December 1997.

With the Region's concurrence, the following criteria were used to evaluate the effectiveness of the State of
Idaho’s stationary source air enforcement program:

•      EPA’s Compliance and Enforcement Manual (1986);

•      EPA’s Guidance on the Timely and Appropriate Enforcement Response to Significant Air
       Pollution Violators (1992);

•      Memo from OECA titled, Oversight of State and Local Penalty Assessment: Revisions to the
       Policy Framework for State/EPA Enforcement Agreements (1993);

•      EPA’s Clean Air Act Stationary Source Civil Penalty Policy (1991); and

•      Fiscal 1993 Compliance Assurance Agreement For Air, Idaho Division of Environmental Quality
       and U.S. Environmental Protection Agency.

We interviewed officials in the DEQ’s Air and Hazardous Waste Division, DEQ’s Coeur d’Alene, Boise,
and Pocatello regional offices, and the State’s Office of Attorney General. We also interviewed officials in
the Region's Office of Air Quality, Idaho Operations Office, Office of Enforcement and Compliance, and
Office of Regional Counsel. In addition, we reviewed applicable laws, regulations, and records maintained
by DEQ and the Region.

The scope included a review of management controls for DEQ and the Region associated with:
(i) enforcement actions and penalties; (ii) resolution of violations; and (iii) inspections. We obtained an
understanding of management controls through inquiries, observations, and inspections of documents and
records. We assessed the control environment, policies and procedures, and risk for the three areas listed
above.


                                                     51                          Report No. 8100249
Although not originally included in the scope of the audit, we evaluated DEQ’s management controls for
reviewing source emissions reports and DEQ’s and the Region's management controls for SV reporting.
We added these areas to the scope of the audit because significant weaknesses in the controls came to our
attention.

During the audit, enforcement related documentation that the DEQ and the State’s Office of the Attorney
General considered to be attorney client privileged was withheld from us. Since DEQ had not escalated
most enforcement actions beyond a warning letter, the withheld information did not represent a significant
scope limitation. However, as discussed in Appendix B, entitled Other Matters, this issue could adversely
effect the Region's ability to oversee DEQ’s enforcement program.

The management control deficiencies that were identified in the audit are described in the report, along with
recommendations for corrective actions. We also reviewed the Region’s 1997 annual FMFIA assurance
letter to the Administrator.

Enforcement Actions

Our review of DEQ’s enforcement actions and penalties included a judgment sample of 2410 of 62 SVs that
DEQ had responsibility for and were unresolved during at least part of the 15-month period ended
December 31, 1997. The sample included a mix of unaddressed, addressed and resolved SVs; and included
approximately 98 percent of the dollar amount of penalty assessments made during the 15-month period.
The sample covered SVs located in each of the six regional areas of the State.

We also evaluated the Region's enforcement actions during the 15-month period ended December 31, 1997
for all 10 EPA enforcement lead SVs that had been assumed from DEQ.

Resolution of Violations

We used the same judgment sample of 24 SVs described above to evaluate the timeliness of DEQ’s
enforcement activities that occurred during the 15-month period ended December 31, 1997.

Inspection Procedures

To evaluate the adequacy of DEQ’s inspections, we selected a judgment sample of 25 of 120 sources
classified as major, potential major, or unknown which were scheduled for an EPA level 2 inspection
during fiscal 1997.

We used a judgment sample of 2311 of the 62 SVs that DEQ had responsibility for during the 15-month
period ended December 31, 1997 to evaluate the timeliness of completed inspection reports. The sample

10. The judgment sample originally included 27 SVs reported to EPA. However, three of the SVs were dropped from the
sample because they did not meet EPA’s SV definition.

11. 25 inspections were conducted on these 23 SVs by DEQ during the 15-month period ended December 31, 1997 were
evaluated.


                                                          52                             Report No. 8100249
included 19 of the SVs originally selected for our enforcement actions evaluation discussed above.

We also reviewed major and potential major source inspection information obtained from AFS and DEQ’s
inspection schedules for fiscals 1997 and 1998 to evaluate the frequency of inspections. The review
included all 120 major and all 228 potential major sources maintained in AFS as of December 1997.

Reviews of Emissions Reports

We reviewed the control record used for tracking DEQ’s receipt and review of source emissions reports to
evaluate the timeliness of the report reviews. Our evaluation included all reports for major, synthetic
minor, and minor sources received by DEQ as of April 1998.

SV Reporting

We used the two12 samples described under the above Enforcement Actions section to evaluate the
accuracy of SV reporting.




12. The two samples consisted of the original judgment sample of 27 SVs that DEQ had responsibility for and the 10 SVs
that had been assumed from DEQ by the Region.




                                                           53                              Report No. 8100249
[This page was intentionally left blank]




                  54                       Report No. 8100249
                                         APPENDIX B
                                       OTHER MATTERS


During the audit, enforcement related documentation that the DEQ and the State’s Office of the Attorney
General considered to be attorney client privileged was withheld from us. The following page contains a
letter from the Office of the Attorney General to the OIG confirming that attorney client privileged
documents would be withheld from the audit. The documentation was withheld under Rule 502 of the
Idaho Rules of Evidence and the Idaho Public Records Act, Idaho Code Section 9-340(1) which exempts
attorney client privileged documents from disclosure. Since DEQ had not escalated most enforcement
actions beyond a warning letter, withheld attorney client privileged information did not represent a
significant scope limitation for this audit. However, we believe the Region needs access to all relevant
enforcement documentation developed by the State to effectively oversee the State’s enforcement program.

According to the Office of the Attorney General, attorney client privileged documentation includes the
compliance action referral (CAR) document, which provides a factual chronology of a source’s compliance
history and the basis for initiating the appropriate enforcement response, including penalty assessments. The
CAR may also include any necessary documents as attachments, including inspection reports and associated
evidence, penalty calculations, justifications, written correspondence, phone logs, e-mails, and
memorandums. Therefore, the CAR represents an important part of DEQ’s enforcement process when
enforcement is escalated beyond the warning letter stage.

Without access to those important enforcement documents, the Region will not be able to obtain a
complete understanding of DEQ’s enforcement decisions. Therefore, the Region needs to have access to
the CARs as well as other essential records documenting enforcement decisions in order to conduct a
complete evaluation of the effectiveness of Idaho’s air enforcement program. This is an extremely
important issue which the Region needs to resolve with the State of Idaho prior to conducting any review
of the State’s air enforcement program.




                                                     55                          Report No. 8100249
[This page was intentionally left blank]




                  56                       Report No. 8100249
                      APPENDIX C
AUDITEES’ RESPONSE TO DRAFT REPORT




Attached are the Region’s and the DEQ’s comments to the draft report.




                                 59                         Report No. 8100249
[This page was intentionally left blank]




                  60                       Report No. 8100249
                                       APPENDIX D
                                  REPORT DISTRIBUTION




Office of Inspector General

Acting Inspector General (2410)

EPA Headquarters Office

Assistant Administrator for Office of Air and Radiation (6101)
Assistant Administrator for Office of Enforcement and Compliance Assurance (2201A)
Agency Followup Official (2710)
Agency Followup Coordinator (2724)
Associate Administrator for Regional Operations and State/Local Relations (1501)
Associate Administrator for Congressional and Legislative Affairs (1301)
Associate Administrator for Communications, Education and Public Affairs (1701)
Comptroller (2731)

Region 10

Regional Administrator
Director, Office of Air Quality
Audit Followup Coordinator
Regional Library

DEQ

Administrator for State of Idaho DEQ




                                                 69                        Report No. 8100249
70   Report No. 8100249
